<html>
<title> - [H.A.S.C. No. 113-79]THE POSTURE OF THE U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-79]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                    THE POSTURE OF THE U.S. NORTHERN

                   COMMAND AND U.S. SOUTHERN COMMAND

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-969                         WASHINGTON : 2014 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov. For more information, contact GPO 
Customer Contact Center, U.S. Government Printing Office. Phone
202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>








                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
              Catherine Sendak, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                 Mike Amato, Professional Staff Member
                           Aaron Falk, Clerk














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, February 26, 2014, The Posture of the U.S. Northern 
  Command and U.S. Southern Command..............................     1

Appendix:

Wednesday, February 26, 2014.....................................    43
                              ----------                              

                      WEDNESDAY, FEBRUARY 26, 2014
   THE POSTURE OF THE U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Jacoby, GEN Charles H., Jr., USA, Commander, U.S. Northern 
  Command and North American Aerospace Defense Command...........     3
Kelly, Gen John F., USMC, Commander, U.S. Southern Command.......     5

                                APPENDIX

Prepared Statements:

    Jacoby, GEN Charles H., Jr...................................    51
    Kelly, Gen John F............................................    76
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Smith, Hon. Adam.............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................   130
    Mr. Langevin.................................................   126
    Mr. Rogers...................................................   128
    Mr. Smith....................................................   125
    Ms. Tsongas..................................................   129
 
   THE POSTURE OF THE U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 26, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning.
    The committee meets today to receive testimony on the 
posture of Northern Command and Southern Command. I am pleased 
to welcome General Charles Jacoby, commander of NORTHCOM [U.S. 
Northern Command] and NORAD [North American Aerospace Defense 
Command], and General John Kelly, commander of SOUTHCOM [U.S. 
Southern Command].
    Gentlemen, thank you very much for your service to this 
nation and for being here with us today.
    This is the committee's first posture hearing on the fiscal 
year 2015 defense authorization cycle.
    However, with the delayed release of the President's budget 
request, we are at a disadvantage in assessing whether your 
priorities and requirements are addressed in the budget and the 
Quadrennial Defense Review. To this end, I have requested a 
list of unfunded requirements from each of your commands.
    It is clear that continued cuts to defense are driving cuts 
in personnel, readiness, and modernization. These have real 
consequences in your areas of responsibility, and I hope you 
will discuss that here with us today.
    As the Department continues to face tight budgets and 
reallocation of resources, we must be diligent in keeping our 
hemisphere safe. There is anticipation that homeland defense 
will continue to receive priority in the upcoming budget 
request and important missions such as missile defense will 
receive increased resources.
    I am concerned, however, that certain NORTHCOM and SOUTHCOM 
exercises and training priorities have been cut in past years 
due to budget shortfalls. I hope you will both discuss what you 
have been able to put back into place and what gaps still 
remain following the conclusion of the budget deal last 
December.
    General Jacoby, looking to our own border, we are 
witnessing a surge of self-defense vigilante forces in Mexico, 
as citizens don't trust state and military police forces to 
address internal security threats.
    I look forward to your thoughts about whether legitimizing 
these forces is the correct path for Mexican security and what 
the implications are for U.S.-Mexico defense cooperation.
    General Kelly, I had the great pleasure of visiting several 
countries in your area of responsibility last week. I was 
struck by Colombia's progress from an almost failed state to a 
nation of continued stability and economic growth.
    In contrast, Venezuela's violent unrest and unstable 
economic situation make it a dangerous place.
    It was kind of a paradox. I traveled to some of these same 
countries about 16 to 18 years ago, with Chairman Spence. And 
in that time, we went to Venezuela, Chile, Argentina, Brazil, 
and Panama.
    This time, we couldn't go to Argentina or Venezuela, but we 
were able to go to Colombia because of their huge turnaround. 
That was a real positive.
    And then the other ones have caused some unrest and some 
problems.
    But it was good to see that Brazil and Chile keep moving a 
little bit better up the ladder.
    I hope that you can discuss with us your lessons that your 
command has learned about combating illicit networking that 
poses a threat to our national security interests, while also 
encouraging Latin American countries to build the capacities to 
tackle their own internal threats.
    Gentlemen, I look forward to your testimonies today, and I 
thank you again for being here with us.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And welcome. General Jacoby, it is good to see you again. 
Fond memories of your time commanding out at Fort Lewis.
    And, General Kelly, fond memories of traveling with you 
when you were with the Marine Corps' Liaison's Office, and 
seeing you in Iraq after that.
    So it is good to see both of you. Really appreciate your 
leadership throughout your careers and in your current 
position.
    I think the chairman identified, you know, the top issue 
for all of us in dealing with the budget. And, you know, it is 
sort of like from bad to worse.
    I mean, it is bad enough dealing with the budget 
environment we have now. You know, we did sort of the soft 
opening for the defense budget a couple days ago, and, you 
know, we are alarmed at some of the cuts that were contained in 
it, which is understandable.
    But that is for the next 2 years, where we have relative 
stability, at least by congressional standards. We passed a 
budget. We have an idea of what the appropriations levels are 
going to be.
    And remind the committee that there are still on the books 
now, 8 years of sequestration after that. And if you are 
alarmed about what the numbers looked like that we saw 2 days 
ago, and then we really need to step up and do something about 
sequestration, sooner rather than later, to, number one, take 
away the uncertainty that that gives to our, you know, planning 
apparatus over at DOD [Department of Defense], but, number two, 
to stop those bad things from happening. And you know, the 
longer we wait, the worse it is.
    So I am curious, to the extent you know how those budgets 
will affect your two commands.
    On NORTHCOM, you know, your first and chief mission is to 
protect the homeland. We met yesterday, talked a little bit 
about that. Missile defense is a key part of that, so I am 
curious on your update on the status of that, on our national 
missile defense system.
    Also very interested in our ongoing relationship with 
Mexico. As the chairman mentioned, it continues to be a 
troublesome area. But it is evolving and changing. And I know 
we have worked fairly closely with our Mexican partners in a 
way that is helpful. Because, obviously, that is a threat to 
our homeland as well, being right across the border.
    Leading into that, SOUTHCOM leads into Mexico. And 
obviously one of the foremost challenges in SOUTHCOM is dealing 
with the drug trade and all the different points of entry that 
it comes from.
    So curious to get an update on how that is going and in 
particular the interagency piece, because, obviously, I think 
as much as any of our combatant commanders, General Kelly, you 
work with other agencies to combat the drug problems that come 
out of Latin America. So curious about that.
    And also, of course, curious to get an update on 
Guantanamo, on the cost issues, the health issues for the 
prisoners down there, how it is going and what you see the 
future of our presence in Guantanamo and the inmates who are 
there.
    Obviously, there are a ton of other issues, but we will get 
to them in the questions and answering.
    It is great to see both of you. Appreciate your leadership. 
Look forward to your testimony.
    I yield back. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you.
    General Jacoby.

 STATEMENT OF GEN CHARLES H. JACOBY, JR., USA, COMMANDER, U.S. 
 NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    General Jacoby. Chairman McKeon, Congressman Smith, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    It is a pleasure to be here once again with my friend and 
fellow combatant commander, General John Kelly of the U.S. 
Southern Command.
    On behalf of the men and women of U.S. Northern Command and 
North American Aerospace Defense Command, I appreciate this 
committee's continuing support of our unique and important 
missions.
    As the world grows increasingly volatile and complex, 
threats to our national security are becoming more diffuse and 
less attributable, while a crisis originating elsewhere in the 
world can rapidly manifest themselves here at home.
    This evolution combined with fiscal constraints demands 
continuous innovation and transformation within the Armed 
Forces, the national security architecture, and in our two 
commands.
    And while we must deal realistically with limited budgets, 
the homeland must be appropriately resourced. Security of our 
citizens cannot be compromised.
    We must continue to enhance international partnerships, 
provide defense support to civil authorities, and ensure the 
defense of the Nation and North America.
    USNORTHCOM and NORAD, as the operational commands in North 
America, are critical components of a layered defense of the 
homeland, deterring and responding to threats before they reach 
our shores, threats ranging from aircraft, ballistic missiles, 
terrorism, transnational criminal organizations, advance 
submarine technologies, and cyber-attacks on our critical 
infrastructure and all the time being prepared to respond in 
support of our citizens in times of their greatest need.
    In the performance of our aerospace missions, including 
Operation Noble Eagle, NORAD, a unique and proven binational 
command of Canada and the United States, defends North American 
airspace and safeguards national key terrain by employing a 
variety of capabilities.
    Now, over the last year, NORAD's ability to execute its 
primary missions have been subject to increased risk, given the 
degradation of U.S. combat Air Force readiness.
    Now, with vigilance and the support of the Air Force, we 
have been able to sustain our effective day-to-day posture but 
we remain concerned about mid- and long-term readiness 
challenges.
    With regards to missile defense, tangible evidence of North 
Korean and Iranian ambitions confirms that the limited 
ballistic missile threat to the homeland has matured from a 
theoretical to a practical consideration.
    Moreover, we are concerned about the potential for these 
lethal technologies to proliferate to other actors. We are also 
working with the Missile Defense Agency to invest in tailored 
solution to address the challenges that advancing missile 
technologies impose on our current ballistic missile defense 
system architecture.
    With the decreasing seasonal ice, the Arctic is evolving 
into a true strategic approach to the homeland. As such, we 
work with our premier partner, Canada, and other stakeholders 
to develop our communications, domain awareness, 
infrastructure, and presence in order to protect economic 
interest, maritime safety, and our freedom of action.
    Defending the homeland in depth requires partnerships with 
our neighbors, Canada, Mexico, and the Bahamas. Our futures are 
inextricably bound together and this needs to be a good thing 
in the security context.
    The stronger and safer they are, the stronger our 
partnerships, the safer we all are collectively. And this 
creates our common competitive security advantage for North 
America.
    For civil support, USNORTHCOM stands ready to respond to 
national security events and provides support as a DOD core 
task to lead Federal agencies for manmade or natural disasters 
and our challenge remains to not be late to need.
    Men and women of the USNORTHCOM and NORAD proudly remain 
vigilant and ready as we stand watch over North America and 
adapt to the uncertainty of the global security environment and 
fiscal realities.
    I am honored to serve as their commander and thank this 
committee for your support of our important missions. I look 
forward to your questions.
    Thank you.
    [The prepared statement of General Jacoby can be found in 
the Appendix on page 51.]
    The Chairman. Thank you. General Kelly.

STATEMENT OF GEN JOHN F. KELLY, USMC, COMMANDER, U.S. SOUTHERN 
                            COMMAND

    General Kelly. Mr. Chairman, Mr. Smith, distinguished 
members of the committee, thank you for the opportunity to 
appear here today and speak to you----
    The Chairman. General, can you get that mic right up to 
you?
    General Kelly. Thanks for the opportunity to speak with you 
today and talk about the soldiers, sailors, airmen, marines of 
SOUTHCOM but also included in that is a tremendous civilian 
work force that I have there, and that includes contractors.
    I am pleased to be here, of course, with Chuck Jacoby 
again. I want to assure you, as Chuck just did, that there are 
no seams between NORTHCOM and SOUTHCOM. We talk all the time, 
we coordinate all the time, we have exchanged liaison officers. 
There is no seam. And I know that tends to be a concern 
sometimes here on the Hill.
    I consider myself very, very fortunate, Mr. Chairman, to 
work in this part of the world. Latin America and the Caribbean 
are some of our staunchest allies and willing partners across a 
broad range of issues.
    Most of the countries in Latin America want to work with 
us, they want to be our partners, they want our friendship, 
they want our support, they want to work with us. They want to 
engage to address a broad range of shared concerns.
    For more than 50 years the U.S. Southern Command has done 
exactly that, and that is engage with our partners across the 
region. We have helped build strong capable military and 
security forces that respect human rights and contribute to 
regional security.
    We have worked with the interagency and international 
community to secure the southern approaches of the United 
States. We have accomplished a lot even with minimal and 
limited resources. But severe budget cuts are now reversing 
this project, I believe, and forcing us to accept significant 
risk.
    Last year we had to cancel more than 200 engagement 
activities and numerous multilateral exercises in Latin 
America. Because of asset shortfalls we are unable to get after 
74 percent of suspected maritime drug trafficking contacts.
    And because of service cuts, we won't be able to 
immediately respond to humanitarian crises or disasters in the 
region without significant time lost in augmentation required.
    Ultimately, the cumulative effect impact of our reduced 
engagement won't be measured in the number of canceled 
activities and reduced deployments, it will be measured in 
terms of U.S. influence, leadership, relationships in a part of 
the world where our engagement has made a real and lasting 
difference over the decades.
    And in the maritime domain, drug traffickers, criminal 
networks, and other actors unburdened by budget cuts or any 
canceled activities or any employee furloughs will have the 
opportunity to exploit the partnership vacuum left by reduced 
U.S. military engagement.
    Mr. Chairman, members, I look forward to discussing these 
and many other issues with you this morning. Thank you.
    [The prepared statement of General Kelly can be found in 
the Appendix on page 76.]
    The Chairman. Thank you very much.
    On Monday, Secretary Hagel and Chairman Dempsey announced 
the updated defense strategy that builds on the QDR 
[Quadrennial Defense Review] that we will be receiving and the 
new budget.
    I recognize that you are not at liberty yet to discuss the 
details on that. But it is my expectation that combatant 
commanders should be active participants in the QDR and the 
budget process.
    With that in mind, what I would like is if you could relate 
to us how you think the new strategy will affect your 
particular commands?
    General Jacoby. Thank you Chairman. You saw in the 
Secretary's soft rollout, he went through some of his critical 
priorities and I was happy to see, as I am sure everybody was, 
that homeland defenses is articulated as the top priority.
    I think, specifically during the last 4 or 5 months working 
together as a team with the Secretary, the chairman and their 
staffs, the homeland has been recognized and has received a 
high priority in the evolution of our strategic thinking now.
    And so, that phrase, ``The homeland is defended'' is 
critical and so, you know, I think we should all be heartened 
by that.
    I have felt that priority during this very difficult budget 
years where the services have turned themselves inside out to 
provide ready forces for NORAD and for NORTHCOM, but I am 
mindful that that comes at the expense of readiness of other 
formations well into the depth of the service capacities and 
capabilities.
    So to put it more succinctly, Air Combat Command that 
provides the fighter planes for my Noble Eagle has done its 
best to give me top readiness for those capabilities, but it 
has come at the expense of increased unreadiness across over 50 
percent of our combat aircraft fleets.
    So the homeland has received priority. But this is a zero-
sum game in readiness capabilities.
    The Army has done the same thing. They have paid particular 
attention to our chemical, biological, radiological, and 
nuclear response capability. But again, that has come at the 
expense of other formations that--they are not on the patch 
chart to finish up the work in Afghanistan, their readiness has 
plummeted.
    So, this has been a tough year for the services. They have 
tried very hard to meet this combatant commander's 
requirements. But I know it is a tremendous challenge for them.
    We appreciate the bipartisan budget agreement in terms of 
providing tactical relief, particularly in the readiness 
categories. But that is still inadequate to remove the shadow 
of sequestration which starts back up again and proceeds for 
another 8 years if something is not done. And that will make it 
near impossible to make the quality strategic decisions that 
will be required for the future.
    General Kelly. Sir, of the six combatant commanders, 
SOUTHCOM for at least a couple of decades has really been the 
economy of force combatant command, that is to say it has 
received the least in terms of budget in available assets and 
things like that.
    And frankly, that is okay in the sense that what goes a 
long way in South America, Latin America, the Caribbean, is a 
little bit. The problem with that, however, is if you only get 
a little bit, and that is a lot in terms of what I do, but if 
you only get a little bit and you lose even a little bit of 
that, it really does severely impact you, and I think if all of 
the combatant commanders, all of us, our responsibility is to 
protect the homeland--ultimately to protect the homeland, I 
think the last place you want to do that is where Chuck Jacoby 
lives, on the borders.
    Chuck oftentimes talks of winning the away game and we do 
that very, very well. The U.S. military, the interagency I 
think has won the away game consistently in the last 10 or 12 
years.
    But in my part of the world, because it is the economy of 
force effort, and as we pivot to other parts of the world that 
are deemed more important to the defense of the United States, 
as I lose a little, I really do lose a lot.
    Hopefully that answers your question, sir.
    The Chairman. General Kelly, when you talk about losing a 
little bit of a little bit, one of the big concerns I have is 
the amount of drugs that you have been able to interdict with a 
little bit. And then when you take away some of that capacity, 
what do you see ahead of us if--I know the percentage of drugs 
that you have been able to interdict versus what law 
enforcement that spends a whole lot more money within our 
borders is able to interdict, that is a pittance compared to 
how much you have been able to stop before it gets to our 
shores or across our borders.
    If you lose the ability to interdict there, don't we see a 
flood of drugs coming into this nation?
    General Kelly. You know, the short answer to that, yes sir, 
we do, we will. The drug effort in--the vast majority of all 
drugs that are imported into the United States come up through 
Latin America and--or are produced in Latin American and then 
flow into Mexico and across the border somewhere along the 
line.
    The key is, we have tremendous intelligence in terms of the 
production and the flow of drugs. I will use cocaine, as an 
example, of cocaine out of Colombia. And they do--the 
Colombians, heroic amounts of work in taking cocaine off of the 
market or eradicating the growth of cocoa, arresting criminals. 
Tremendous work. I can't give them enough credit.
    Panama, very similar. But we have very, very good clarity 
on the movement when it leaves continental Latin America and as 
it flows up the isthmus, which is the traffic pattern of 
choice.
    But if you don't have airborne ISR [intelligence, 
surveillance, and reconnaissance] to pick it up as it is moving 
across the ocean, and if you then don't have legal 
enforcement--police enforcement, law enforcement to do the end 
game thing, you simply don't get it.
    So the example I would give you, in 2011 we got 172 metric 
tons of cocaine, tons of cocaine, before it ever reached shore 
in Honduras or in Latin America. Last year, 2012, because of a 
lack of assets, 152 tons. That is 20 tons that got by us--20 
more tons. This year they just finished 132 tons. It is all 
about ships, ISR--and not many ships.
    Typically, today we have on station four ships. One of 
which is a British oiler. A key point that can fly a 
helicopter. That British oiler, in 6 months, will get 20 tons 
or 30 tons of cocaine that is flowing into the United States. 
But, sir it is almost a scientific equation: Less ships, less 
cocaine off the market.
    By the way, when I get it, I get it--and it is an 
interagency process, DEA [Drug Enforcement Administration], DOJ 
[Department of Justice], I mean, it is just not DOD doing this. 
In fact, we are to a large degree in support of the effort. 
But, at the end of the day, we get all of this tonnage, we 
spend 1.5 percent of the counternarcotics budget we get--again 
this year or last year we got 132 metric tons, zero violence, 
we get them 2 to 5 tons at a time.
    Once it is ashore and on its way up through Mexico, it is 
virtually in the United States, and no matter how hard our 
very, very heroic border patrol and law enforcement people in 
the United States work, best case, they will get 30 tons in the 
course of a year with unbelievable violence--as you well know--
done against our country, our citizens.
    And, at the end of the day--the end of the year, year after 
year, 40,000 Americans die from these drugs, every year. It 
costs America $26 billion a year to go after these drugs from a 
law enforcement point of view. It costs America $200 billion in 
primarily healthcare costs--for a fraction of that, in fact, 
for 1.6 percent of that, I can get the vast majority of drugs--
cocaine, to use the example, flowing up from Latin America.
    General Jacoby. Mr. Chairman, if John doesn't get it--if he 
doesn't catch it in the transit zone, and we know that the 
transit zone is not the only place to work, it is just a place 
to work--but he gets it in bulk. If it hits the shore in Mexico 
or into the upper portions of Central America and then crosses 
into Mexico it is broken into very small loads and it is almost 
impossible to do effective interdiction.
    Nonetheless, our partners on the border have intercepted--
interdicted 39 percent more drugs over the last 3 years. So 
they are doing their job, it is just an incredibly difficult 
job. And that is why so much of our effort now together is 
thinking about, how do we put pressure on the networks, how do 
we put pressure on the organization and the men and women that 
are trafficking these materials, as well as the interdictive 
effect.
    Thank you.
    The Chairman. Thank you, both, for the efforts you are 
making, and I want to make sure the committee as we go through 
the process really focuses in on this and makes sure that all 
we can do to make sure that the resources are there to cut this 
as close to the source and as far from our borders as we can.
    So just one other thing that I want to mention. I know 
there has been a lot of focus since the Secretary and General 
Dempsey did this rollout and there has been a lot of focus on 
the Army end strength of 440,000 and people have been very, 
very concerned about that, because the feeling that it is the 
smallest Army since just before World War II.
    I want to just make one thing very clear, that 440,000 is a 
number if sequestration goes away. And I don't know any way 
that that is going to happen. But, what we are really looking 
it is 420,000 when sequestration comes back in at the end of 
the budget agreement that was just worked out.
    So thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    General Jacoby, can you tell us a little more about what is 
going on with the Mexican drug war. We just had a high-profile 
capture of Joaquin Guzman as a positive success. I think you 
mentioned there has been a significant increase in vigilante 
groups, you know, trying to combat the drug trade, you know, I 
guess a relatively new government in Mexico.
    What is the update on how that is going in your view? And 
then, specifically the cooperation between your folks and the 
Mexican authorities?
    General Jacoby. Thank you, sir.
    I think the Chapo capture really illustrates the commitment 
this administration--this Mexican administration to continuing 
the fight against the cartels themselves. And so this is very 
important. We talked about--just now talked about the 
difficulties of doing this by interdiction alone. We have got 
to find ways to put pressure on these networks. As the 
President rightly said in July of 2011, you know, this is a 
national security threat to us, and it is exceeding the 
capacity of all of our partner law enforcement agencies. And 
that is why you see so many militaries in the region--to 
include the Mexican militaries--committed to this fight.
    To that end, the Pena Nieto administration has been able to 
take Chapo off the street, the Sinaloa Gulf Cartel leader or 
the Gulf Cartel leader and the Zeta Cartel leader. So that is--
the top three organizations have lost their top leadership over 
the last year.
    That is significant, and it is necessary. It is not 
sufficient though. We have to continue to pressure the rest of 
the networks, because they have a resilience and a depth to 
those organizations that allow the next-leader-up capacity 
within them.
    But I am heartened and applaud their efforts and the 
contributions that the Mexican military has made in this 
important fight. Our relationship with the Mexican military has 
continued to improve. They have asked for--we have worked with 
them and provided training, all kinds of partnering, things 
that we do together that really are as broad and rich as any of 
our strategic security partners.
    So we have trained with over 5,000 Mexican soldiers and 
marines in the last year, and over the last 3 years it has been 
almost a 500 percent increase in the number of things that we 
do together that they have asked for us to do with them.
    And it is a rich exchange and we are benefiting from it as 
much as they are. So there is a lot of work to be done. The 
threat is adaptable. It is empowered by its wealth and the 
violence that they are willing to commit on their own people. 
And so this is a long tough fight, and in the end it is a law 
enforcement solution at the very end of this effort.
    And so we are going to continue partnering with them. These 
are common security concerns. But, I think the Chapo capture 
just highlights the continued commitment--that is the important 
part--the continued commitment to a very, very tough fight and 
a very expensive fight.
    Mr. Smith. Thank you.
    And, General Kelly, on Guantanamo. Do you have an estimate 
right now what the per prisoner cost is maintaining the 
Guantanamo prison facility?
    General Kelly. Yes sir, based on what I spend down there--
about $130 million a year, that comes out to--we got 155 
detainees now. That is probably $750,000 a year. There is 
another figure out there that is bigger than what I spend that 
takes in every single kind of penny that is spent at 
Guantanamo, but that is more of a--I won't speak to that 
figure. It is larger, it is about $400 million. But, in terms 
of what I spend down there to detain 155 prisoners right now 
and take care of them medically and all of that, it is about 
$750,000 a piece.
    Mr. Smith. And as that population ages, can you talk a 
little more about the medical challenges?
    Now, as I understand it, you provide the best care you can 
within, you know, what is available in Guantanamo, which is 
quite a bit, but there is still limitation given where it is 
at, but to bring in outside specialists--you can't take any of 
the prisoners off of the base, so you would have to bring them 
in.
    So, as the population is aging, how are the costs being 
affected? And how do you handle some of those medical 
challenges in dealing with the inmates' medical needs?
    General Kelly. Sir, any medical care that is not available 
on the island--we have done this now since we have had 
detention operations down there--we bring in medical folks--
military medical folks, typically from Norfolk or Charleston, 
fly them down there, and we do it routinely.
    If, as time goes by, these men start having some of the--
you know, the typical things associated with getting older and 
they are more chronic, we would do the same thing, but it does 
take a while to get them down there. So as time goes on I am 
not so sure the medical care will increase, but the medical 
care beyond what is on the island would not be available to 
them.
    Mr. Smith. Yes, more problematic.
    Okay, thank you, that is all I have.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And thank you both for being here.
    I would like to get y'all's views on two issues during the 
limited time I have.
    First is, Secretary Hagel and Chairman McKeon have both 
announced efforts to reduce bureaucracy and overhead both at 
the Pentagon and at combatant commands. And so I would be 
interested in y'all's view about what should guide us as we 
look at having more efficiency, more agility, lower costs at 
all of the combatant commands, from your perspective?
    General Jacoby. Thanks, Congressman.
    That was really the opening round of ways to make savings 
in order to be in compliance with the law. And so first thing 
out of the chute, it was a stretch goal and we were directed to 
reduce--over 5 years--20 percent in our combatant commands. And 
so we understood that, that was our share of the load and we 
have proceeded on that path. We have all submitted plans on how 
we are going to do that, and we are committed to making those 
reductions and those efficiencies.
    Now, I want to say, sir, that, you know, it was a very 
difficult year for us, it was a difficult year especially for 
our civilians who we furloughed and then who bore the brunt of 
the government shutdown. And, you know, we have worked 
tirelessly for decades to build an effective team with our 
civilians. And so they had a tough year.
    And so this first year or so we are committed to not 
removing civilians from the workforce any more than attrition 
and not filling positions that have remained empty. And that is 
our commitment to them and we are going to try to keep that 
commitment.
    We have done some minor reorganizations in the command. To 
a large extent, we have passed missions and requirements to 
components. But I will tell you that our components also took 
drastic cuts.
    So there is quite a bit of work being done to gain 
efficiencies, to do it logically, to do it in a manner that 
allows us to continue accomplishing our missions. Because for a 
combatant commander, our guiding light is what is our mission, 
what are we expected to accomplish, and how do we continue to 
accomplish those missions in the best way possible.
    One of the things I do is I write plans. I write major 
plans that are directed by the President and by the Secretary 
of Defense and that takes staff work. And that takes manpower. 
And so, you know, this is--you don't do, you know, more with 
less. You do less. And you do it slower and you don't get it 
done on time.
    Mr. Thornberry. Thank you, sir.
    General Kelly, do you have something to add? And I want to 
get to the other issues.
    General Kelly. I just want to echo Chuck's comments about 
the workforce and what, you know, the knothole we pulled them 
through last year. No one deserves to go through that and I 
pray that we don't ever do that again. They are hardworking 
people. I don't have a lot of extra people working at SOUTHCOM. 
They come early. They stay late. They do a lot of great work.
    Mr. Thornberry. Okay. Thank you.
    General Kelly, let me start with you on the second issue. 
There was a change in the appropriations bill on human rights 
vetting for the current year, which basically expands it from 
just those retrained to those who retrain, equip, or provide 
other assistance. There is concern that there is not enough 
people at the State Department to vet these people; that it is 
all going to get balled up. The default position is going to be 
to deny.
    I would be interested in your thoughts, if your folks have 
had a chance to look at the effect of this change on your 
ability to help train, equip, assist our partners in your 
region.
    General Kelly. Let me start, Congressman, by saying this, 
that the human rights record, and I meet with human rights 
groups here in Washington frequently and every time I go into a 
Latin American country, in almost every case I will meet with 
human rights groups. Some of them are very hostile; some of 
them less hostile, if you will. So I have got an open door to 
human rights.
    Generally speaking, what they tell me is today the people 
we work with are generally following the human rights rule. And 
I would tell you, a lot of people talk about human rights in 
the world. The U.S. military does human rights. We will not 
work with someone who violates human rights in Latin America. 
And I think that goes around the world. So that is the first 
point.
    The second point is we are already very, very restricted in 
who we work with. I look to human rights all of the time, but I 
will tell you the reason why the human rights record is getting 
better and better and better in Latin American countries, and 
in some cases very, very good, is because of the effect the 
U.S. military has had in working with them over the last few 
decades.
    To your point about the new legislation, we don't know what 
it means yet. We are literally standing by to let the lawyers 
then tell us what it means. So, I have got to think it was 
written to be more restrictive, so I am assuming it will be 
more restrictive for us, but we are waiting for the general 
counsel in the Department of Defense, I am sure are working 
with the Congress, to figure out what exactly the words mean 
and what we can do in the future.
    General Jacoby. Mr. Chairman--I am sorry, sir.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    There is a time in the life of every problem where it is 
already big enough to see, but it is still small enough to 
solve. And it seems to me that what I understood you all to say 
is that an investment early-on, closer to the source in South 
America, before any of the drugs or before they hit Mexico in 
particular, is the best investment of our money.
    Is there some data that you all can share with the 
committee that would back that up?
    General Jacoby. Thank you, sir.
    Particularly in the distribution part of the enterprise, I 
think that is exactly the case. But there is more than the 
distribution side of the drug problem. There is the production 
side, but there is also the finance side and the leadership 
side and the consumption side. And so I think that our point, 
one of our larger points to make on this is that this is a 
series of threat networks that are dealing in illicit activity. 
And the primary money winner for them right now is drugs. But 
when you put pressure on the drug piece, they go into 
kidnapping and extortion and the transit of illegals.
    And so these are powerful and rich organizations, which I 
think we need to make a concerted effort across those networks. 
But on the distribution side, it is very much better to work 
the distribution portion of the criminal enterprise early in 
the chain. But I think it is a larger issue than that, sir.
    Mr. Gallego. General Kelly.
    General Kelly. Yes, Congressman. This network that brings 
things to the United States, it is incredibly efficient. It is 
more efficient than FedEx [Federal Express] could ever hope to 
be. And anything can travel on it. Most of what travels on it 
is drugs--heroin, methamphetamines, cocaine. But people travel 
on it, all sorts of guns travel on it, money travels on it. It 
is incredibly effective. It is just now drugs are the big 
money-maker for them.
    As I mentioned a little earlier, I spend 1.5 percent of the 
counternarcotic budget--1.5 percent. I get the vast majority of 
cocaine with no violence in large amounts. And we capture these 
traffickers, bring them to the U.S. court system, and they 
cooperate to a man. And we gain a great deal of intelligence 
from them.
    I can see, when I say ``I,'' SOUTHCOM and Joint Interagency 
Task Force South in Key West, we can see it with amazing 
clarity, this drug movement. But 74 percent of it, I watch go 
by. I can't touch it. And when I say I watch it go by, in the 
maritime domain to Honduras primarily, because I don't have the 
assets to stop it.
    Mr. Gallego. The district that I represent in Texas is a 
little over two-thirds, I think, of the Texas border with 
Mexico. So this is a huge issue for me at home. And I wonder, 
are you--can you tell me, if you were to compare, for example, 
how many tons of drugs were caught by law enforcement in the 
U.S. side versus how much was caught in Mexico versus how much 
was caught before, how would those numbers compare? You know, 
drugs caught before they land in Mexico; drugs caught in 
Mexico; and drugs caught in the U.S., how would those numbers 
compare?
    General Kelly. I got 132 tons last year. Let me start at 
the beginning.
    The Colombians, again, just can't give them enough credit; 
200 tons and eradicated 40,000 acres of coca before it was ever 
harvested. I got 132 tons in the transit zone before it got to 
Honduras. Almost nothing is taken off the flow between Honduras 
and the Mexican border. You know--a handful of tons.
    Last year, and it is up big-time, but our border officials 
on both sides of the border, we think that about--we got about, 
all around the country, we got about 30 tons. So----
    Mr. Gallego. Their 30 tons all around the country, in 
comparison to your 132 tons.
    General Kelly. 132 tons. And again, the cost is I get it 
for 1.6 percent of the budget; zero violence. And you have to 
keep thinking about the violence, because once it gets ashore, 
it is--you can use Honduras as an example--it is the most 
dangerous country on the planet. Guatemala is almost as 
dangerous; 70,000 Mexican deaths in the last 7 years I think in 
their drug fight. And then when it gets into the United States, 
just the local violence of distribution, dealing this stuff, it 
is just incredibly violent.
    Mr. Gallego. Thank you so much. I want to thank each of you 
for what you do.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your testimony.
    I want to pick up a little bit where I think Mr. Smith was. 
I had to step out for a few minutes to talk to some disabled 
American veterans, which we also need to keep in mind, as well 
as those still serving.
    I think probably both of you know, it has been in my mind, 
and I have spoken in hearings before and tried to move some 
legislation looking at ways that we might be able to combine or 
eliminate some of the COCOMs [combatant commands], frankly.
    So let me, with that sort of thinking in mind, let me 
address both of you for just a minute. I look here at NORTHCOM 
and SOUTHCOM particularly. NORTHCOM has responsibility for 
support for domestic disaster relief efforts; support for 
counterdrug and counterterrorism efforts; support for domestic 
WMD [weapons of mass destruction] incident response, and 
consequence management support, too; and DOD liaison with law 
enforcement agencies, and support for events of national 
significance.
    All important, no doubt. None of those are what we would 
call traditional warfighting.
    SOUTHCOM, General, with all respect, there is sort of no 
potentially state-on-state conflict down there, although we 
obviously watch Venezuela pretty closely. One never knows. But 
you have got countering transnational organized crime, building 
partner capacity, planning for contingencies--always a good 
thing I guess--including responding to a natural disaster, mass 
migration event, attack on the Panama Canal, or evacuating 
American citizens.
    So, as General Jacoby says, he does a lot of planning. And 
I assume, General Kelly, that you do as well, and that you are 
able to keep those plans secret. But I am wondering, it does 
seem to me that in these times when we are talking about, as 
advertised, shrinking the Army back to pre-World War II levels. 
And General Kelly, I know you have got your purple suit on, but 
if I can sort of see the green suit through there, you know 
what is happening to the Marine Corps and how it is shrinking 
in size. That we ought to be giving serious consideration to 
combining or consolidating some of these commands. We have two 
four-stars sitting here. You undoubtedly have some two- or 
three-stars in the organization. You have got a lot of SES's 
[Senior Executive Service] and all of those things that it sure 
seems to me would make sense to seriously consider combining 
some COCOMs.
    And so I know neither one of you wants to rat out your 
COCOM here, but why couldn't we, if not specifically for you, 
generically do some combining of these major commands? And I 
don't care--we can start with either one of you.
    General Jacoby. Thank you, sir.
    I think we are in an environment where we have to take all 
of these potential efficiencies seriously. This particular idea 
has been examined at least three times in major ways by the GAO 
[Government Accountability Office] and others, and by the 
Department of Defense since the early 2000s. It was reexamined 
again.
    But I think that you have to look beyond just the question 
of how can I gain efficiencies. It really has to do with your 
strategy, and how do you execute your strategy. And so it is 
part of the U.S. strategy to continue to engage the world and 
to defend our interests and deter and address instability 
around the world with our global--our geographic combatant 
commanders.
    In the homeland, we have looked at this closely. My most 
important relationships on a day-to-day basis are 50 governors 
and then throw in Puerto Rico and the Virgin Islands.
    And so that is a wide audience and number of folks that we 
are working with across all the defense support, the civil 
authority tasks that we do.
    But I also have a very, very intensive homeland defense 
task which I think is growing because of the growing threats 
and vulnerability to our countries. And so my responsibilities 
range all the way from nuclear command and control to ICBM 
[intercontinental ballistic missile] missile defense 
requirements, cruise missile requirements and all those are 
going up, they are not going down.
    And then there is something different and important about 
the partnerships that we have on the approaches to the 
homeland. The Arctic is going to be more of an approach to the 
homeland, it is going to be a strategic approach to the 
homeland and is going to require the same Defense Department 
interest and engagement and activity that any of the approaches 
to the homeland have and any of the bodies of water in which we 
want to have a safe, competitive advantage.
    Canada and Mexico are not just partners, they are neighbors 
and they are integral to the defense of our homeland, and I 
think that that makes it a special case and not just another 
couple of countries for us to engage with.
    So I think that it is important to examine these things. It 
was examined. We are not making a major strategic shift. And so 
I think that that is off the table for now.
    But if sequestration comes, if it continues, we are going 
to have to go back to the well across all of the dimensions of 
the strategy.
    Thank you sir.
    Mr. Kline. All right. I see my time has expired. Mr. 
Chairman, sequestration is here so it is important that you 
added the--if it continues and General Kelly you don't get a 
chance to defend SOUTHCOM, but I assume that you would tell us 
that it couldn't be consolidated either.
    If that is not right, start shaking your head and I will 
find a way to get back to you.
    Okay.
    General Kelly. I should--I think there should be a 
SOUTHCOM, even if there was only the combatant commander.
    [Laughter.]
    Mr. Kline. I yield back.
    The Chairman. Thank you. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    General Kelly, I am sure you are familiar with the great 
successes of the National Guard State Partnership Program in 
Central Europe and incorporating the former Warsaw Pact 
nations. Many--most of them now into NATO [North Atlantic 
Treaty Organization] and of the great contributions those 
nations have made in our efforts in Iraq and Afghanistan.
    And I know that Colombia now has a State Partnership 
Program and I am wondering what future nations may adopt a 
State Partnership Program? And how you see the future of that 
impacting your operations in SOUTHCOM?
    General Kelly. State Partnership Programs, I think I have 
24 of them in the region. They are important to me, that is 
exactly the kind of--particularly I think for my part of the 
world, a little bit goes a long, long way.
    So to have some great National Guard folks come down and 
work for a short period of time with one of the--you know, one 
of the host countries in some way. And these are small--as you 
know, these are small contact points. But it really does go a 
long way to tie the United States in general to these 
countries.
    So they are pretty important to me in--right now that I 
don't think we have anyone that is expanding. In fact, 
unfortunately, I think it is Kentucky and Ecuador--the 
Ecuadorians are kind of--somewhat cool to our presence right 
now, so they are not having the opportunity to do very much.
    But certainly I would be open to any country in the region 
wanting to have a relationship with one of our National Guard 
States.
    Mr. Enyart. Generally, I know we have seen a lot of 
headlines recently about the instability in Venezuela. And I am 
wondering how you view that as impacting the wider 
relationships in South America?
    General Kelly. I mean, I think, you know, as we watch what 
is happening in Venezuela, the economy is, to say the least, in 
trouble and there is obviously discontent there.
    But they are not having an awful lot of political impact, I 
don't believe, with the countries that surround them. Generally 
speaking, there are a few countries, the ALBA [Bolivarian 
Alliance for the Americas] countries that are somewhat 
associated with them. One of the concerns I do have though is 
that the Venezuelans traditionally have given a great deal of 
petroleum, oil to a number of countries, Cuba as a example, 
Nicaragua, some other countries, at almost give-away--at 
literally give-away prices.
    If they can't continue that and they are already talking 
about perhaps not being able to continue it, these countries 
could not get by with buying fuel, you know, in kind of the 
global rates. So we would see some issues there. And again, a 
lot of these countries, Cuba's economy is kind of close to the 
edge.
    If they were to have to start spending a significantly 
large amount of money for fossil fuels, that would have an 
impact on their economy.
    And when countries in Latin America--I think almost in 
countries anywhere, when the economies start to go south, the 
migrants start to move north, if you will. And that would be my 
concern.
    Other countries like Haiti that get virtually all of their 
fuel from Venezuela, an economy that is teetering on the edge, 
they just couldn't afford it. And there are a number of other 
countries like that that depend on the petroleum products that 
they get from Venezuela at, as I say, almost give-away prices.
    So I am concerned about that because the migration piece is 
part of the one of the things I have to think about.
    Mr. Enyart. General Jacoby, I don't want to give you a free 
ride. So I will drop down and I have some more for General 
Kelly.
    But General, as the Army draws down from the winding down 
of the wars in Iraq and Afghanistan, do you believe that it is 
necessary for the security of NORTHCOM and for the homeland 
that the Army have a rapidly expansible capability, that is 
that it could grow back rapidly in the event that we need to?
    General Jacoby. Thanks, Congressman.
    I think that historically, expansible Army has been part of 
how we have approached defense. I think the requirements today 
for readiness and for deployability are higher than they ever 
have been historically.
    So I think there is a different construct. But I think that 
having the ability to expand the force in times of crisis has 
been a historical mechanism that we have always sought to have.
    Mr. Enyart. I am sure, General, that the 50 governors that 
you referenced before as well as the governors of Puerto Rico 
and the Virgin Islands would support you in that--support you 
in maintaining a strong and ready National Guard.
    General Jacoby. Yes, sir. Thank you.
    Mr. Enyart. Thank you. I yield back, Mr. Chairman.
    The Chairman. I would like to point out that we have a 
former chairman in the room, Chairman Hunter, want to really 
make it welcoming for former chairmen around here.
    [Laughter.]
    [Applause.]
    Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman.
    To General Jacoby, first, thanks for what you are doing at 
NORTHCOM and keeping the homeland safe. I had the great honor 
of being able to serve at NORTHCOM, first under General 
Eberhart and then under Admiral Keating, way back before we 
actually hit FOC [full operational capability].
    My question has to do with the dual status commander 
program. Can you give me an update on how well that is working, 
progress, how it is functioning, any obstacles and any cases 
where it has been utilized and whether it was a success or not?
    General Jacoby. Doctor, thanks, thanks for that question.
    You know, the dual status commander was a very, very 
positive step forward that the Council of Governors and the 
Department worked together on and the Congress enabled for us.
    And we have used it over 16 times since I have been in 
command and 4 times over the last year to great effect.
    And what I find so exciting about it actually is how much 
flexibility and adaptability it gives me and it gives the 
governors and the adjutants general in providing support and 
are--a vast array of civil support tasks from national 
specialist security events like the Super Bowl to an emergent 
disaster like Colorado flooding and wildfires.
    And we have been successful using dual status commanders, 
who have actually this year incorporated title 10 forces right 
next to guardsman and State Active Duty in title 32 to great 
success.
    So it is a super program. Right now, this year we trained 
over 200--we have trained over 200 now, dual status commanders 
and every State has multiple dual status commanders and we have 
begun training some title 10 senior leaders so that we can 
provide title 10 deputies or title 10 dual status commanders 
tremendous flexibility.
    Another thing that we have done is we have instituted 
training update programs for as things evolve and change. So it 
is a very positive program and I think it has built great trust 
and confidence amongst the States and NORTHCOM.
    Dr. Heck. During the time it has been used, have there been 
both title 10 and title 32 commanders, or has it all been title 
32 functioning in dual status?
    General Jacoby. It has all been title 32, except for on a 
couple of occasions we have had a title 10. And historically it 
has been a title 10 for the Boy Scout Jamboree.
    But the vast majority, as is the direction of the statute, 
is the customary and usual way that we command it is with a 
National Guards commander.
    Dr. Heck. Thank you. And General Kelly, likewise, for 
everything that you are doing in trying to keep illicit drugs 
from hitting our shores.
    You know there has been a lot of discussion about whether 
or not we should start changing our focus from drugs that are 
being produced in other countries, to more of the prescription 
drug abuse problem that we see here in the United States.
    More people are dying from prescription drugs than they are 
from cocaine and heroin, combined.
    If that argument takes hold, how do you see--I mean, and 
you are doing this at a very small cost to the overall drug 
control budget. If you start seeing a shifting of focus to 
perhaps more prescription drug abuse problems, how do you see 
that impacting your ability to do the work that you are doing?
    General Kelly. You are spot-on with the abuse of 
prescription drugs. But that is actually reversing now because 
of the various regulations and what-not that the government has 
put in place to control the amount of drugs that are 
prescribed.
    They have done some things to the drugs to make sure that 
they are not injectable, things like that. So we actually see 
the use of prescription drugs going, for a lot of reasons as I 
say. And it is very, very expensive and so what we see 
replacing prescription drugs is heroin.
    Infinitely cheaper. A single OxyContin pill in an upscale 
neighborhood in the United States could cost $80 to $100. In an 
inner city neighborhood, the same pill could cost maybe $60. A 
bag of cocaine--a bag of heroin, $7 or $8.
    So we are seeing more and more heroin--in fact there is a, 
I think, been a 60 percent increase in the use of heroin in the 
country in just the last couple of years. So the good news is 
prescription drugs are going down in terms of abuse. The very, 
very bad news is heroin is going up and unlike in the past, 
upscale neighborhoods--and if you just read recently the kind 
of deaths we have seen, it is really tragic to me that it has 
to be some high public face individual, usually, you know, an 
actor or something to die--I mean, it is tens of thousands of 
young kids from the cities that have been dying from heroin and 
drugs in general. And no one seems to have cared very much.
    So I guess it is good that we have had a couple high 
publicity deaths so that now people are starting to take 
notice. But all of that heroin comes out of Latin America, up 
through Mexico. The poppies are grown in Latin America. We 
don't get heroin from overseas anymore; it is all done.
    These drug networks that we are talking about, and Chuck 
has referenced, are so good at what they do--they are just 
international businessmen, the worst kind though, and they are 
just--they diversify, they go after whatever they make a 
profit.
    Dr. Heck. Thank you.
    Thank you, Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General Jacoby, General Kelly thank you for being here 
today, and for your service to our Nation. And I hope you will 
express our appreciation to all those who are under your 
command for the work that they do every day to keep our country 
safe.
    General Jacoby, if I could start with you, we are all aware 
of the growing challenges of maintaining security in 
cyberspace. Which is a--obviously a recurring theme that we 
have been talking about quite a bit.
    A 2013 report from the Director of Operational Testing and 
Evaluation concluded that, and I quote--``Network defenses are 
insufficient to protect against a determined or well-resourced 
cyber adversary and war fighter missions should be considered 
at moderate to high risk until they can be demonstrated to be 
resilient in a contested cyber environment,'' end quote.
    General, could you share your perspective on the cyber 
threat to domestic security operations and also to elaborate on 
how the NORAD-NORTHCOM Joint Cyber Center is collaborating with 
civilian and military partners in cyberspace?
    General Jacoby. Thanks, Congressman. I thought Director 
Clapper's testimony was really helpful on this in highlighting 
his concerns about the cyber threat, and those are echoed here 
in the homeland.
    I mean, the cyber nets that are most vulnerable and most 
important to us are the ones that reside in the homeland. In 
our case, we have our mission nets which are critical for the 
defense of the Nation. So their defense is essential and to 
address that, we have received and are standing up our first 
Cyber Protect Team, 28 trained soldiers and airmen with NSA 
[National Security Agency] training, CYBERCOM [U.S. Cyber 
Command] training.
    And so we also work hard to try to exercise in a cyber-
challenged environment with specially trained red teams. So it 
is understanding our own vulnerabilities as well as 
understanding the threat at the same time. We are working hard. 
There are a lot of legacy systems out there that didn't have 
the cyber mission assurance that we might have put in today in 
the past so there is some catch-up to do as well.
    And we are busily working on that.
    I would say it is critical in our country that we develop 
relationships and partnerships that the President has laid out 
in his recent executive order on cybersecurity, to ensure that 
we understand the interdependencies between private, 
commercial, and government systems and we understand how to 
share information in a way that doesn't disadvantage our 
civilian--commercial partners. And to that end we have a very 
close working relationship with DHS [Department of Homeland 
Security], which really has the bulk of our cybersecurity 
partnerships and concerns and also with the FBI [Federal Bureau 
of Investigation] as we have concerns with what is illegal 
activity.
    I think, in the future, we are building structure total 
force solutions to this in keeping with the blueprint from 
CYBERCOM on what we think the requirements are in the future. I 
believe that we are going to require legislation, policy, and 
regulations that help us understand the mission space and that 
brighten up the lines in the road for the Department of 
Defense, but we are making progress to that end in terms of 
understanding our vulnerabilities and developing our 
requirements.
    Mr. Langevin. Thank you for your focus on this, General. It 
is obviously important.
    The same DOT&E [Director of Operational Test and 
Evaluation] report observed that, and I quote--``Less than one-
third of all fielded systems observed in assessments over the 
past 5 years have had a current inter-operability 
certifications,'' end quote.
    What has NORTHCOM been doing to improve operability and 
information sharing about cybersecurity threats and network 
system defenses?
    General Jacoby. We really are looking at ways to improve 
within the command, and then between our partners.
    I will tell you that one of the important challenges is to 
ensure we are interoperable in the NORAD realm with Canada. 
That relationship with Canada allows us to highlight really the 
interdependencies and relationships between countries in our 
networks, between systems in our networks like energy systems 
and transportation systems. And so, you know, we are doing work 
as NORAD with our Canadian partners to make sure we understand 
those linkages and vulnerabilities.
    Really, the lead agency for the Department is CYBERCOM in 
terms of ensuring the standards in which we secure. And I think 
that they are doing a good job in getting that word out, and by 
helping us stand up our Joint Cyber Center and helping us with 
key subject matter experts we are going to continue to work to 
meet those standards.
    Mr. Langevin. Thank you.
    The Chairman. Time expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you. If you have already answered this 
question, I apologize, but General Kelly let me get your 
thoughts on extremist elements within Central America--within 
South and Central America, particularly Venezuela, and what 
foothold they might or might not be getting.
    Islamic jihadists.
    General Kelly. Yes, there is some activity.
    There is an awful lot of proselytizing and missionary work 
if you will, but Iran has expanded--I think we addressed this 
last year in the hearing--expanding their presence in Latin 
America. Don't really know what they are up to. Not really well 
received by many governments with the exception of Venezuela.
    So we watch it, but no real threat right now from that 
vector. But, something obviously to watch.
    Mr. Conaway. All right. I apologize for not being here. I 
will re-plow any new ground, but again thank you very much for 
both your service.
    And I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And General Jacoby and General Kelly, thank you very much 
for your service.
    There has been a lot of talk about interdiction today and I 
wanted to focus on Secretary of Defense Hagel's announcement--
discussion on Tuesday about the curtailment of the Navy's 
planned LCS [littoral combat ship] purchases from 52 to 32.
    Obviously, we are not anywhere near that right now, but in 
light of all that we have talked about this morning and the 
fact that South American drug traffickers are increasingly 
using semi-submersibles to traffic drugs into the U.S.-NORTHCOM 
area of operations, how do you think that this cutback if you 
will in terms of purchases would effect the effort?
    Is that part of what you are talking about of needing 
resources to fight this?
    General Kelly. Congresswoman, you know, I don't own a lot 
of forces. Decisions made in the Pentagon as to where, in this 
case, ships would flow--to pivot the Pacific as an example, or 
to the Persian Gulf--so those decisions made inside the 
Pentagon. I get what I get. And I would just say, you know, 
more ships are better. Less ships are worse.
    I need a platform--I do my best work--the interagency does 
its best work in terms of getting massive amounts of cocaine 
out of the network flowing, I need a helicopter and I need a 
ship that the helicopter can land on.
    I don't need an aircraft carrier; in fact, I will take an 
oiler if it has a helipad where a helicopter can operate from 
or a Coast Guard cutter, they do magnificent work and really 
are the lead agency in my part of the world in terms of law 
enforcement aspect of this thing.
    But I need some kind of platforms and the decision is made, 
it has been made now for a number of years, that SOUTHCOM 
doesn't get what it has asked for. That is a decision I won't 
criticize.
    But, if you are asking, could I use more ships and take out 
more product off the network, I would say yes.
    Mrs. Davis. But I guess, just generally though, I mean, if 
there are a number of platforms perhaps--are you suggesting 
that maybe the LCS isn't as critical perhaps or that even the 
number of 52 would not have--would be more than or--is there--
--
    General Kelly. Again, not to speak about LCS, I need a ship 
that can land a helicopter on it. Right now, one of the 
things--one of the ships in my part of the world that is just 
doing yeoman work is a British oiler; doesn't have a gun on it, 
but it has got a helipad and the helicopter can refuel there. 
And it is doing--and that helicopter is doing great work.
    Mrs. Davis. All right, thank you.
    General Jacoby, also talking about some of the concerns 
that we have had about expandability. There is a potential 
reorganization of the National Guard's aviation units and I am 
wondering how you feel that that would effect the ability that 
you have as the USNORTHCOM commander.
    Would it make a difference in your ability to fulfill the 
defense and support of civil authorities----
    General Jacoby. Yes, I am aware of the initiatives that the 
Army has been forced to take, and I know that these are, you 
know, tremendously difficult decisions that the chief and the 
Secretary had to make. And I have great respect for the 
challenge they have had trying to navigate that.
    In particular, I think that the--from the NORTHCOM 
commander perspective, I am a requirements guy, and so I don't 
have the need for an armed Apache in the homeland, but I will 
take more Black Hawks. And I will take more LUHs [light utility 
helicopters] and I think the Army plan gives more Black Hawks 
and more LUHs so that supports the homeland. And I don't need 
armed attack aviation in the homeland.
    But it is not as simple as that. I know that. And so my hat 
goes off to the Army for being able to manage scarce resources 
in order to create the most combat-effective total force.
    But my requirement? I will pick Black Hawks.
    Mrs. Davis. Do you feel that your voice is heard in that?
    General Jacoby. Sure.
    Mrs. Davis. Okay.
    General Jacoby. Thank you.
    Mrs. Davis. Yes, I want to be sure that you are having the 
input and that it is making a difference.
    Thank you.
    General Jacoby. Well, yes, ma'am.
    Mrs. Davis. Okay. And also just, General Kelly, there is 
talk about the USS Comfort not deploying this year. How will 
that affect your priorities and the humanitarian efforts?
    General Kelly. Very briefly. I know we are running out of 
time. But the Comfort is a really, really big engagement deal 
in Latin America. They look forward to it. It has huge impact 
on the local communities that it visits. And it really does--it 
really is appreciated. And it is a great image of what the 
United States does for the world--a big American flag but no 
guns. And that is--the places it visits, it has huge impact. 
And to have lost that this year was very, very disappointing.
    Mrs. Davis. All right.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, both of you made comments about our civilian 
workforce. I want to thank you for those comments and your 
commitment to that workforce. I represent Robins Air Force Base 
and Moody Air Force Base. And I can tell you when you talk with 
that workforce that is out there supporting the warfighter, 
they feel exactly the way your comments--your written comments 
reflect. And we need to make sure that we are taking care of 
them. So I appreciate your comments in recognizing them, and 
your commitment to them.
    Moody Air Force Base, I can't go without saying that is 
home of the A-10. I do a few Wounded Warrior hunts a year, and 
any of the men that I have talked about that have been in 
contact with the enemy are very proud of that weapon system and 
don't think there is another system that has done as much to 
protect our troops in contact as that weapons system has proven 
to be capable of.
    With that said, I want to move to, General Kelly, your 
comment about insufficient maritime surface vessels and 
intelligence surveillance and reconnaissance platform impairing 
your primary mission. I traveled with the chairman to Colombia. 
It is very clear that they are capable of handling the ground 
game there. But it is also very clear that we are the country 
that has to provide the intelligence, the ISR platforms to tell 
them where the mission is.
    The JSTARS [Joint Surveillance Target Attack Radar System] 
fly out of Robins Air Force Base. It is a battle management 
platform. There have been a lot of proposals to improve that 
platform. And I would just like for both of you to describe the 
ways in which the JSTAR asset has been used in your areas of 
operation.
    General Jacoby. JSTARS is one of those assets, Congressman, 
that really defines, you know, high-value, low-number asset. 
And so, I have used it my whole career, particularly in Iraq 
and Afghanistan, usually along borders; you know, usually to 
great effect. It has been adapted over and over again. It is 
one of those great pieces of kit that has proved its worth over 
time.
    And we have been able to take advantage of it in support of 
law enforcement when asked for that type of capability. We have 
been occasionally able to get it to support law enforcement 
around the southwest border and they have done a terrific job.
    General Kelly. Congressman, my organization when we are 
going to get a JSTARS, there is glee. It is a game-changer over 
the Caribbean. We only get JSTARS as training missions. So they 
are flying to just simply train. The airplane, of course, 
doesn't know where it is flying over, so they come down to the 
Caribbean. We put them into the drug fight. We see everything 
when the JSTARS are on station.
    Frankly, we do the same thing on other training missions 
with bombers--B-52 bombers and B-1 bombers, with pods on them. 
So I will take anything I can get, but if I can get a JSTARS, 
it is a game-changer.
    Mr. Scott. Well, thank you for those comments. And it is a 
big ocean out there and the radar on that JSTAR platform gives 
you the ability to look at an awful lot of it in one pass.
    With that, I will just say thank you. I do think that the 
mission that is going on in getting the drugs, stopping the 
drugs before they ever get to America is an extremely important 
one, and I am glad that your men have been as effective in 
doing that as they have been.
    And with that, I will yield the remainder of my time.
    The Chairman. Thank you.
    I just want to point out, on that trip, we were able to see 
the submersibles that they bring a lot of the drugs in. And I 
remember as they were talking to us, they talked about having 
two frigates that were just several hundred meters apart and a 
submersible in between that they couldn't see.
    So it does take a helicopter or JSTAR, other means 
coordinated with the ships that are there to interdict. So all 
of these are very important items.
    Mr. Veasey. Thank you, Mr. Chairman.
    General Kelly, I want to ask you some additional questions 
about illegal drugs. You know, one of the drugs that oftentimes 
comes in from borders is marijuana. And several States now have 
taken initiatives to legalize marijuana or decriminalize 
marijuana. And I wanted to know what effect do you think that 
is going to have on the war on drugs?
    General Kelly. Thanks for that question, Congressman.
    I think the first thing you have to take note of is 
countries that have decriminalized or legalized drugs are all 
now trying to figure out ways to turn back the clock. Legal or 
decriminalized drugs bring crime, bring higher addiction rates, 
bring higher, you know, substance abuse problems. And they are 
all trying to turn back the clock.
    As far as Latin America goes, we have been encouraging 
these countries to be in the drug fight for 25 years. The 
levels of violence that our drug problem has caused in many of 
these countries is just astronomical. And so, when we talk 
about decriminalizing, the example I would give you is the two 
States that voted to decriminalize marijuana, or legalize 
marijuana.
    Most of the states--countries I deal with were in utter 
disbelief that we would, in their opinion, be going in that 
direction, particularly after 25 years of encouraging them to 
fight our drug problem in their countries and, you know, in 
their littorals.
    So that is kind of where they are on it. They are very 
polite to me, but every now and again when they are not so 
polite, the term ``hypocrite'' gets into the discussion. But 
frankly, the crime rate is so high in many of these countries 
and the fact that they see us turning away from the drug fight, 
that--they are starting to chatter a lot about, ``Well, why 
don't we just step back and let it flow.'' We do a lot on the 
high seas, but Mexico, Panama, Honduras, Guatemala, they are 
in--Colombia--they are in this fight big time with us. But at 
the end of the day, it is really our problem. And I think it is 
a false choice on their part, and I tell them this, to step 
back and let it flow will continue to bring you high crime 
problems. To stay in the fight is the way to go.
    But to answer your question, I guess, it is hard for me to 
look them in the eye and tell them ``You really need to, you 
know, stay shoulder to shoulder with us,'' because they see us 
in a sense giving in.
    I don't know if that answers your question, Congressman.
    Mr. Veasey. Are the cartels that deal with moving 
marijuana, are they starting to look at moving to another 
product? I mean, to shift--move the marijuana into the United 
States? Are they starting to consider moving to another product 
or is it just not having any effect, as you can tell right now?
    General Kelly. They are already completely diversified. 
They move cocaine, heroin--they make heroin. They make 
methamphetamines. They make cocaine, and they transport it. 
They also do the same thing with illegal aliens, sex slaves--
something to the tune of 18,000 sex slaves a year, mostly 
adolescent young women, move through this network into the 
United States every year. Anything can move on this network.
    They are already diversified. They are now starting to 
diversify into illegal mining, illegal logging for certain 
types of wood--anything to make a buck. And the profits that 
come out, just the drug profits that come out of the United 
States is something to the tune of $85 billion a year, of which 
only $1 billion is required to keep the drug flow going. The 
rest of it is just profit.
    Their biggest problem, frankly, in our interagency, the 
Department of Treasury, FBI, Department of Justice--is getting 
after this. But their biggest problem is taking $85 billion 
worth of U.S. currency and laundering it.
    Mr. Veasey. So even--just let me get your opinion on this--
so even if you were to see this trend of legalization or 
decriminalization here in America take effect, because of this 
diversification, can we not expect to save any money on the war 
on drugs from the, you know, Pentagon's point of view?
    General Kelly. The more we decriminalize or legalize drugs, 
God forbid, the more we do that, the social price of dealing 
with the additional crime, because there will be additional 
crime, the additional health care and all of that will go up 
exponentially. This costs a lot of money. It is astounding to 
me that we are--we have just kicked off--the Federal Government 
has just kicked off a $100 million program to try to get people 
to stop smoking tobacco, yet we are opening up other areas of 
substance abuse. It is just astounding to me we are doing this, 
but----
    Mr. Veasey. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I truly do appreciate both your gentleman's service to 
our country. It means a lot.
    And when you talk about the drug flow, I will concur with 
you, after 38 years in law enforcement. You know, we would get 
a small, small smidgen of the drugs off the street; cost a lot 
of money to do that. It is much more cost-effective, I would 
think, to do it the way we have been doing it, and particularly 
out in South America.
    But I wonder, you know, last year, I believe, General 
Kelly, you may have testified to the fact, the amount of 
dollars that are clearing the profit. Do we have any ideas as 
to where those dollars are going? Obviously, going back to the 
cartels, but is that money being utilized for anything other 
than furthering their criminal activities or others? Do we have 
any idea?
    General Kelly. It all goes back into some type of criminal 
activity. As I say, their biggest problem is laundering the 
money. There is so much of it. And they have ways to do that. 
And as I said, the FBI, the DEA, the DOJ, and the Treasury are 
really working that hard and increasing their efforts to do 
that.
    But as an example, we know some of that money and as it 
goes through the laundering process, we know that elements of 
some Islamic radical organizations, both Shia and Sunni are 
involved in that, and take, we are estimating tens of millions 
of dollars into their organizations.
    Cocaine that moves into Africa--the vast majority of 
cocaine that is produced, and virtually all of it that is 
produced in Peru and the other two big producers, Peru, number 
one, Bolivia, number two, that cocaine moves through Latin 
America to Africa and then up into Western Europe and the 
Middle East.
    We know that Al Qaeda affiliate organizations have taken 
money out of that as it moves, kind of as a whole. So it is 
going into every imaginable nefarious kind of activity to 
include Islamic radicalism.
    I don't know if that answers it, but----
    Mr. Nugent. It does. And my concern is obviously, it seems 
like this is sort of an afterthought in regards to the 
Pentagon's decision in regards to giving you the assets that 
you need to have.
    Now, understand it is, you know, in war time, those assets 
are going to be placed in other locations but this is really--
and you have talked about it, the commitment of our allies in 
this fight.
    It seems like we have a very small commitment at the end of 
the day where we could have greater returns if we just up that 
commitment just a--even a small amount, versus trying to wait 
until it gets back in the United States, where once it gets 
diffused into our criminal justice system or what we have to go 
through to get it, becomes really difficult.
    You know, I would like to see more assets, obviously, 
provided to you within that combat command. But in particular, 
as it relates to just what you talked about, doesn't have to 
be, you know, a multi-billion dollar aircraft carrier, it can 
be something as simple as refitting some--you know, a ship, a 
platform to give you the assets, the helicopter assets. And 
General Jacoby, the question was--or a statement was made in 
reference to, you know, the National Guard and the Army's look 
at how they are going to refit or take away the attack assets 
of the National Guard.
    And then I understand the National Guard's reluctance to 
give that up because they are kind of a mirror image of the big 
Army. But I will agree with you from this aspect that it would 
be more important at least from the State aspect to have more 
Black Hawks.
    General Jacoby. Right. So I want to make clear, 
Congressman, thanks for bringing that back up that you know, I 
am looking at it from the NORTHCOM commanders' requirement.
    Mr. Nugent. Right.
    General Jacoby. I would love for our governors and our 
adjutants general to have that kind of capability to meet the 
needs of their people.
    I understand it is a more complicated question that--but I 
really think the Army is being driven to this, you know, by the 
Budget Control Act and by the realities of the fiscal 
environment and they have to manage these shortages in order to 
put the best total force together to meet all of the missions 
sets of the combatant commanders.
    Mr. Nugent. One last thing, in reference to the Black 
Hawks, in particular, as it relates to the Army National Guard, 
but we have an Army Reserve out there with a number of Black 
Hawk assets that really don't ever get called into play to 
support the State mission.
    General Jacoby. Thanks, and I want to thank Congress for 
making that possible and NDAA [National Defense Authorization 
Act] 2012 that allowed us to use title 10 Reserves for the very 
first time. Used to be against the law, now we can use them.
    And so, I am working very closely with General Grass and 
with the directors of the different Reserve forces to ensure 
that we come up with methodologies and mechanisms to get them 
effectively employed.
    Mr. Nugent. I thank you for your time.
    I yield back.
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman, thank you General 
Jacoby and General Kelly for your testimony today.
    I am a Navy pilot. I have spent a lot of my time deployed 
to the Southern Command, the forward operating locations that 
we have--in El Salvador, Colombia, Curacao. I have spent many 
months on watch at the Joint Interagency Task Force South. I 
have seen, first hand, how wonderful the intelligence that we 
get coming from SOUTHCOM is.
    I have also been excessively frustrated when we get such 
great intelligence from people who are taking great risk upon 
themselves, we get phenomenal intelligence and this is not--it 
doesn't come easy, but it comes. And when it comes, I fly an 
aircraft called an E-2 Hawkeye, it is one of those intelligence 
surveillance--that reconnaissance aircraft that you talked 
about, General Kelly, that we don't have enough of.
    Interestingly, my squadron has been cut in March of 2013, 
and so it doesn't exist as an asset or resource in this fight.
    But even when it did exist, we would get the intelligence, 
we would see the target, we would make every effort to track 
and interdict the target, and over, and over, and over again, 
the end-game assets were not available.
    The Coast Guard cutters that you talked about, the Navy 
cruisers that could, you know, carry helicopters, put a Coast 
Guard law enforcement detachment on those ships, even though 
they are DOD assets, you can put law enforcement detachments on 
those assets to avoid, you know, the Posse Comitatus 
challenges.
    The question I have for you, General Kelly, when you think 
about the national security of the United States and this is 
one of the challenges I have, quite frankly, on Capitol Hill. 
We have a real national security threat to the United States of 
America, that SOUTHCOM is specifically designed to deal with.
    And I have just heard today, even, as a matter of fact, 
people talking about combining NORTHCOM and SOUTHCOM. SOUTHCOM 
is already one of the regions in the world that is the most 
disregarded by the United States of America and it needs--that 
needs to change.
    When you talk about the integration of transnational 
criminal organizations with leftist, totalitarian government, 
and now the integration of terrorist organizations in the 
Middle East, this is a real national security threat for the 
United States of America.
    General Kelly, I was wondering if you could take a minute 
and talk about some of these challenges?
    General Kelly. I don't guess I could say it any better than 
you just said it, Congressman. But specifically on the 
integration, in the end-game piece, you are right.
    We have phenomenally good intelligence we watch come out of 
all over Latin America. The good news is now more and more and 
more, we have partners--and again, I would say Colombia, 
Panama, and some of the other countries that are in real 
crisis, by the way, in the northern part of Central America 
that are in the fight with us. So they are getting more and 
more. But the frustrating thing is, you are right, I mean, 
about 75 percent of it that we watch, we can't touch. We only 
really engage about 25 percent of it.
    I keep saying this but it is very, very important--no 
violence to speak of. They stop, we board, we get 5 tons, and 
we take them and arrest them and they go into the U.S. legal 
justice system.
    When it gets ashore and comes into the United States, the 
distribution system is just an amazing thing. And these cartels 
are just not, you know, south of the border. They deal--manage 
the distribution within the United States.
    We estimate it is about 1,200 retail outlets, if you will, 
that these cartels control all over the United States. And then 
of course, it is then distributed down.
    So there is not much you can do in spite of all the amazing 
heroic deeds of our law enforcement people at the border and 
all over America. Once it is in it is just part of this 
distribution network that it is almost impossible to touch.
    Mr. Bridenstine. Sorry about that. When you talk about the 
pivot to the Pacific. A lot of us on this committee, we have 
heard a lot of testimony about the pivot to the Pacific.
    And it is pretty clear to me that in many cases, unless we 
plus-up the Navy significantly, the pivot to the Pacific looks 
very hollow.
    And the threats to America see it that way, quite frankly. 
I understand the Straits of Malacca, they need to be secured. 
We have got to protect the seas, we have got to protect freedom 
of movement. We all agree with that.
    But this massive pivot to the Pacific, you were mentioning 
earlier, economies of force, which is a critical thing that I 
think Congress needs to understand which is a very small 
investment in the Caribbean, a very small investment in 
SOUTHCOM, the eastern Pacific.
    These investments can yield a tremendous amount of benefit 
to the United States of America from the national security 
threat that is very real coming from Central and South America.
    And yet, you can take this enormous region of the Pacific 
and do a pivot to the Pacific with a small force and it 
actually hollows us out and makes us look weak.
    If you could just share a testimony real quickly, if you 
had all the resources you needed----
    Mr. Conaway [presiding]. Gentleman's time is expired. We 
have got other folks who want to ask questions, Jim.
    Mr. Bridenstine. Roger that, Chairman. We will talk later.
    Mr. Conaway. Now, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you. I am almost wanting to yield my 
time to Mr. Bridenstine, because he is talking exactly where I 
wanted to go. But I won't do that.
    Instead I would have a--just one of the sentences in your 
testimony, General Kelly, ``As the lowest priority, geographic 
combat command, USSOUTHCOM will likely receive little if any 
trickle down of the restored funding.''
    And just following on what my colleague was talking about, 
there are threats and then there are immediate threats, and 
clearly the issue we are talking about here of the Caribbean 
and the drug issues are immediate threats.
    I am also the ranking member of the Coast Guard 
Subcommittee, and so the integration of the military with the 
Coast Guard is critical. Both of them have suffered with the 
sequestration and with attention going elsewhere.
    So this really for my colleagues as well is that we really 
need to pay attention to the funding for these two commands, 
for the SOUTHCOM command as well as for the Coast Guard and the 
interrelationship.
    Specifically, General, the ISR platforms, the unmanned 
platforms, we covered some of this a moment ago but not the 
unmanned piece of it. Are they sufficient? What is it going to 
take? What are the best platforms available on the unmanned 
vehicles?
    General Kelly.
    General Kelly. I mean, the--yes, sir. The unmanned drones, 
ISR, we don't get--we don't see that very much where we are. I 
mean, that is one of those assets that is probably in more 
demand than JSTARS. So we don't see those very much.
    But interesting enough, the Colombians have purchased their 
own, now. We used to provide them some help in this regard. The 
Colombians--they are not armed right now, but they have 
produced them or bought them from the Israelis.
    They are doing great work over Colombia and in their 
littorals. But we don't see an awful lot of the unmanned ISR 
capability, it is almost all manned is what we work with.
    And some of this now is contract. I have got some contract 
airplanes that do great work for us because we simply can't get 
access to the E-2s and some of the other things we have talked 
about here this morning
    Mr. Garamendi. I was in Colombia last week and we visited 
with President Santos on these issues. Also happened to have 
been in Cartagena when the LCS Coronado was there. Talk about a 
very expensive platform, and I was struck by your description 
of a tanker--an oil tanker--with a platform for a helicopter 
being very useful, probably 100th of the cost of that LCS, 
which is quite a ship.
    I think the bottom line here is that we have an immediate 
threat, and we are simply not providing the resources to deal 
with it, either the Coast Guard, the issue of new cutters--
offshore cutters and the like.
    I want to just take my last couple of minutes here and 
really shift to the north and the Arctic, again, the 
interrelationship between the military and the Coast Guard. And 
General Jacoby, if you could just discuss this relationship or 
the interrelationship of them.
    General Jacoby. Thanks, Congressman.
    We have a great relationship with the Coast Guard and, 
along with the Canadians, they are the premier----
    Mr. Garamendi. Let's talk assets for a moment. You came out 
with a report last fall about the Arctic--the role of the 
Arctic, and if you could just pick that up, what do we need 
from the military side, and from the Coast Guard side in the 
Arctic?
    General Jacoby. So the question is, what do we need and 
when do we need it?
    You know, the Arctic is a harsh environment, it is melting 
and it is going to become more navigable and there is going to 
be increased human activity. We just don't know the pace of it. 
So it is a very difficult question, what do we need and when.
    We are going to need icebreakers. We are going to need ISR. 
We are going to need communications above 60. We are going to 
need better mapping of the littorals in the Arctic.
    So those things are going to be required in the future. The 
next 5 years, and in the next 10 years are real challenges. 
What should our investments be for 15 years out when it really 
is----
    Mr. Garamendi. I would appreciate more specificity.
    We understand the word, more, around here. But we need 
specificity--more specificity.
    With regard to the cutter in the Coast Guard 
reauthorization there is money for a cutter, about one-fifth of 
what would be needed. Where we would find the other money is 
going to be unknown.
    Revamping, we have got some questions about rebuilding, 
revamping an existing Coast Guard cutter to serve the purposes 
in the Arctic, but I would appreciate specific information 
about the assets that are going to be needed for the Arctic, as 
well as for SOUTHCOM.
    Thank you very much. I am out of time.
    I yield back.
    Mr. Conaway. Mr. Garamendi's time has expired.
    Mr. Turner, 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    General Jacoby, thank you for being here today and for all 
of your leadership.
    One of the issues that we struggle with in this committee 
is the issue of missile defense. As you know, the threat is 
proliferating both of weapons of mass destruction and with 
specific missile technology that can place mainland United 
States at risk.
    The President has now canceled two missile defense systems 
that were intended to protect mainland United States, both 
the--what was known as the third site, which the Bush 
administration had proposed, and even phase four now of the 
Phased Adaptive Approach, which was intended to provide that 
mainland coverage.
    This committee and Congress, through the National Defense 
Authorization Act, has continued to advance a, what the 
administration would have called a hedging strategy, but we 
actually consider to be a sound strategy of locating a missile 
defense site on the East Coast that would give us that 
additional ability that has been lost with the third site and 
with the Phased Adaptive Approach, and also would give us 
greater ability to protect that site with it being within our 
homeland.
    In fiscal year 2014, the NDAA, we included a requirement 
and funding for the Missile Defense Agency to update its plans 
and required documentation for this potential East Coast 
missile defense site. We are obviously looking for your insight 
and support for that effort. We both authorized and 
appropriated--which means, Congress had to do a great deal of 
deliberation in deciding to move forward with the East Coast 
missile defense site.
    We want to reduce the deployment timeframe when the United 
States decides to deploy the site. Waltwood, a third 
interceptor site on the East Coast of the United States, 
provide for missile defense coverage to the United States.
    Would it be prudent if all the appropriate required 
documentation was completed to deploy the site sooner than 
later, and although there are those who have said at times it 
is not presently needed, we know that the future development of 
threats pose an environment in which that would be incredibly 
helpful.
    We would like your words on that, sir.
    General Jacoby. Congressman, thank you.
    A third site, if you built it, would give us better weapons 
access, it would give us increased inventory and increased 
battlespace with regards to a threat coming from the direction 
of the Middle East.
    So those are just facts. And that is what it would give to 
the combatant commander--and that is me--the one that is 
accountable for the defense of the homeland from the ICBM 
threats.
    Currently, we know that, in the Middle East, Iran continues 
to--while we are doing the ``Five plus One,'' and we are all 
hopeful that ``Five plus One'' contributes to safety and 
security in the Middle East and our own country. They have not 
stopped aspirational goals towards ICBM technologies. They have 
successfully put a missile--space vehicle into orbit, and that 
demonstrates the types of technologies that you need to develop 
an ICBM.
    So we are watching closely.
    I think it was very prudent to direct us--or the Missile 
Defense Agency--to do a site selection. There were four sites 
that were determined. We were close partners with Admiral 
Syring every step of the way, to include final say on what were 
going to be the top four sites, and what were the 
characteristics and criteria used for selecting.
    Those have been selected and according to the directions we 
received, we are moving forward on the EIS [Environmental 
Impact Statement] for all four sites, which should put us in a 
position to have those completed in the next 2 years.
    So I think we are on the right path to provide options in 
continuing development for a third site and the ability to 
outpace a threat from the Middle East.
    Mr. Turner. Well, sir I want to thank you for those 
comments, because I have always said that everyone who 
questions this site is just three classified briefings away 
from being a real great fan of it. And everyone not having 
access to those briefings and everyone not availing themselves 
of that, your statements of support in this hearing of support 
of that third site are certainly important, because it shows in 
your judgment, the importance of our making certain that we 
rise to the threat.
    So I appreciate those----
    General Jacoby. Congressman, I want to clarify that, I 
think it is going to put us in a position to make a good 
decision in a timely fashion.
    Mr. Turner. Thank you, General.
    Mr. Conaway. Ms. Speier, 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here.
    I have just returned from a week in Colombia, where there 
was a lot of good news in terms of the civility there and the 
rule of law. We met with the President.
    It appears though that Venezuela is a powder keg. And we 
heard also that Central America is in grave condition and I 
recognize in your statement, General Kelly, that you pointed to 
the fact that Latin America remains the most unequal and 
insecure region in the world, and I would probably suggest 
Honduras has got to be at the core of that.
    What more should we be doing?
    It seems like we move into one area, it becomes secure, and 
the trafficking just moves to other areas within Latin America.
    General Kelly. You know, it is really a whole-of-
government--whole-of-world approach. You are right. If we--
recently we have had great successes--declining success, but 
great successes interdicting the drugs as it moves up into 
Central America.
    And we have seen drug traffickers start to move product 
now--up to 14 percent of it now we think is moving back to the 
old network up the Antilles into the Dominican Republic and 
Puerto Rico or directly into the United States.
    So they are pretty adaptive people.
    So to deal with this drug problem, obviously, starts kind 
of in kindergartens and in grade schools and all of those kind 
of--those programs to keep kids off drugs. And then, to fund 
properly law enforcement inside the United States. And then to 
pick up as much of this stuff as it moves along the so-called 
transit zone into these Latin American countries. And then, the 
source zones, that is to say who produces it, Colombia and 
countries like that. And they are doing as I say a tremendous 
job.
    So it is really a whole-of-government--whole-of-the-world--
whole-of-world approach. There is not one single answer to it. 
At the end of the day, in my part of the world, more 
engagement--not necessarily money, but more opportunity to 
advise these countries and to help these countries help 
themselves.
    So I am not asking for, you know, heavy brigades and Apache 
helicopters and Marine amphibious forces. I am asking for the 
ability to deal with countries that I am somewhat restricted in 
dealing with right now, small engagements to teach human 
rights, to teach how you interact and get at these problems.
    So that would be my answer to you.
    Ms. Speier. All right, thank you.
    It is my understanding that we have not had a missile 
defense test succeed since 2008, in that, we have had three 
back-to-back test failures. So my question is are you confident 
that we can test accurately and safely without failure.
    General Jacoby. Thanks for the question.
    I have now confidence that we are going to test. That is 
the most important thing. And so there is budgeted money now 
for a good steady test cadence that will allow us to understand 
problems that might exist with the various systems, to fix 
them, to develop new capabilities. I mean, I think that is 
critical.
    And so Admiral Syring and the Department have committed to 
a very firm and robust testing schedule. We did have a 
successful CE2 [Commander's Exercise Engagement] flight last 
year. It wasn't an intercept flight, but it was a successful 
flight. But I think it is really important when you are making 
upwards of dozens of modifications on boosters and EKVs 
[exoatmospheric kill vehicles] that we test.
    There are countries that don't test. We are not one of 
them. We test and make sure that what we have is a real system, 
a credible system.
    Ms. Speier. But, General, our tests have been test 
failures, so----
    General Jacoby. Well, in part. Yes, ma'am, I think we have 
had a number of intercept failures. But if you look--it was a 
5-year gap in the last intercept test.
    So I think it is important to get back on a testing regime 
and make sure that we determine and achieve reliability in the 
system.
    Those challenges are accounted for in our shot doctrine. 
They are accounted for in our battle management. And the fact 
is, that right now, the threat is a very limited threat.
    But you bring up a great point. And as the combatant 
commander, I insist that we continue testing and make the 
modifications and make the improvement in the systems that not 
just give us reliable--or a sense of confidence in the current 
system, but also in the ability of the system to adapt and 
become more effective over time, as we pace the threat.
    Mr. Conaway. The gentlelady's time has expired.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Jacoby, General Kelly, thank you so much for 
joining us today, and thank you for your service.
    General Kelly, I want to begin with you. Can you give me an 
indication--I noted last year there were a number of Navy ship 
deployments in your AOR [area of responsibility] that were 
canceled. Can you tell me about the impact of that, and what 
you did to mitigate those canceled ship deployments?
    General Kelly. Yes, sir.
    First, we didn't have--we weren't going to get that many 
ships, so we didn't, you know, lose much.
    But in my AO [area of operations], not--you know, losing a 
little is losing a lot.
    Mr. Wittman. Yes.
    General Kelly. How we mitigated it. Just more work with our 
partners, providing intelligence. One of the--kind of a 
breakthrough we had last year is we found a way legally to 
share information with our partners, not tell them how we get 
the information, but to share information with our partners.
    And I can't say enough about the interagency aspect of this 
fight. I mean, at many of our embassies, we have FBI, we have 
DEA, we have DEA FAST [Foreign-Deployed Advisory and Support 
Team] teams. These are really heroic men and women that work 
with some of our partners, Honduras, Guatemala, people like 
that. Amazingly effective people.
    So we really started to work closer with our allies. And, 
as I say, the breakthrough, the ability to start what we call 
spot-on-the-map information, where we can tell them, ``If you 
go here,'' you know, ``you will find something worth finding.''
    And, again, we don't tell them how. And it is protected. 
And then we have liaison officers out of my headquarters in--or 
my JIATF [Joint Interagency Task Force] South headquarters in 
Key West in which we have law enforcement liaisons in many of 
the production countries we are talking about, or the countries 
that do the most with us to go after this drug flow.
    So that is how we have mitigated it. Because we have just--
I think we had on station last year one Navy ship. As a 
requirement, it is for, well, a lot more than that. I won't go 
into it.
    A couple--two or three Coast Guard cutters. I mean, to the 
gentleman's comments a few minutes ago, I mean, the lion's 
share of the effort really is done by Coast Guard cutters and 
DEA and FBI. Just really, really good people.
    And, for that matter, Customs and Border Patrol, Border 
Protection folks.
    Mr. Wittman. Very good.
    Let me ask an--other element of concern within the SOUTHCOM 
AOR. As you heard alluded to earlier, an increased Iranian 
influence in the area, more Islamic extremism, efforts being 
projected in that particular area, can you tell me, what are 
you doing in response to that, especially as it relates to our 
embassies?
    Can you kind of give us your overview about that?
    General Kelly. We are keeping an eye on it. You know, we 
don't know what they are up to. Generally, I would offer that 
the Iranians need to be watched pretty closely. They--no 
revelation here. They don't like us. No--you know, in terms of 
what is in Latin America for the Iranians, I mean there are two 
entirely different cultures, ways of looking at life, ways of 
looking at God and everything else. So why are they so active?
    They are active in a couple countries that receive them. 
But, for the most part, what they have done is opened up a 
number of embassies; certainly their right to do it. I think 
they have opened 11 additional embassies in Latin America.
    They have also opened what they call cultural centers, 33 
of them, I think, throughout the area. These can be used for a 
lot of different reasons, and we are just keeping an eye on 
that.
    But they are fairly active, again.
    Mr. Wittman. I would like to ask both you gentlemen the 
concerns and challenges that you see as far as military 
readiness going forward. One of the areas that we have defined 
as I think the biggest challenge going forward is how do we 
make sure in this resource-challenged environment that we keep 
a steady and consistent effort on maintaining readiness.
    And, as you know, sequester made that extraordinarily hard. 
In fact, I would argue, in some areas, it actually took away 
readiness from the military.
    So I would like to get your perspective.
    General Jacoby, I will begin with you.
    General Jacoby. Thank you, Congressman.
    We consume service readiness. We are combatant commanders; 
we consume service readiness.
    The homeland has received a good healthy support as a 
priority, so we are consuming readiness.
    Now, I will tell you, that in the homeland, I don't have 
the same readiness requirements as others do, because it is not 
a deployment, an overseas deployment.
    Mr. Wittman. Right.
    General Jacoby. John Kelly is not getting that priority. 
And he requires a little bit different kind of readiness in 
order to get folks deployed.
    And so, you know, the bipartisan budget agreement, it 
bought us some time, bought us some breathing space. But every 
force that is made ready for current use is just contributing 
to a bathtub effect that will be accelerated if we continue on 
with the law and sequestration numbers start up again in 2016.
    Mr. Wittman. Okay.
    General Kelly.
    General Kelly. I can't add anything to that, but I would 
like to add something, and that is the readiness of our people.
    And, generally speaking, those of us in uniform get credit 
for serving the Nation. Those of us in uniform are pretty well 
taken care of.
    But, frankly, there is a big aspect to our readiness in 
terms of personnel, and that is our civilian workforce. And 
that includes, in my opinion, contractors.
    These are very, very dedicated men and women who we haven't 
really been very nice to in the last year or so. It is amazing 
to me that the morale I have in SOUTHCOM, in my headquarters 
and throughout the region, in terms of my civilian morale, is 
as high as it is.
    They have a lot of confidence in me. We do the best we can 
to share the good news and the bad news with them.
    But our civilian workforce across the Federal Government is 
just as important to us as those of us in uniform. So we need 
to keep an eye on their morale and take care of them as well.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Conaway. The gentleman's time is expired.
    Mr. Smith, 5 minutes?
    Mr. Smith. Well, thank you, Mr. Chairman.
    I just want to echo that last point on, you know, the 
importance of the civilian workforce. The furloughs, the 
uncertainty, it has been devastating.
    And, you know, that is moving. It also makes it more 
difficult to get the people that we need into that--you know, 
that line of work. They have other options, and it makes it 
more and more difficult.
    I follow up on the missile defense issue. And this is 
something you and I talked about last night.
    Mr. Chairman makes the point about, you know, the 
importance of an East Coast missile defense system. And, by and 
large, he is right. You know, the more missile defense we have 
to protect the homeland, the more we can discourage potential 
threats, you know. And that is not even really classified. I 
mean, we hit North Korea, we have hit Iran, we hit a whole 
bunch of other places, and what could potentially happen out 
there.
    The concern that I have is sort of following up on Ms. 
Speier's point, and that is that the system that we have right 
now isn't working particularly well.
    I want to spend money on missile defense. I think it is 
critically important.
    But to spend money on developing a new site so we can put 
missiles and radars and sensors and spend $4 billion on a 
system that can't hit a target in a test strikes me as 
unintelligent would be the polite way to put it.
    I would rather spend that money on what you just said, test 
the existing system; get it to work. Get us to that point.
    I am worried about even deploying more missiles, you know, 
in our two existing sites, when they can't hit a target.
    Why don't we spend money on radars and sensors and tests to 
get to the point where we actually have a system that works?
    Now, I suppose we could--of course, public hearings like 
this undermine what I am about to say here--I suppose we could 
just bluff. You know, we could convince our adversaries, oh, we 
have got these missiles. They could work.
    But unfortunately we are in an open society, so we can't do 
that very successfully. They know even before I, you know, said 
this, that those tests failed, because it is a matter of public 
record.
    So shouldn't we be wiser about how we spend that money, to 
spend it on getting our missile defense system to the point 
where it actually works, instead of just feeling good about 
having it deployed?
    General Jacoby. Congressman, I think we all want the same 
thing. We want----
    Mr. Smith. That is not entirely true.
    If you sat here on the nights when we do the NDAA and we 
argue about this stuff on this committee, I can assure you, we 
do not all want the same thing.
    But go ahead.
    General Jacoby. Well, based on our conversation last night, 
I think you and I want the same thing, which is----
    Mr. Smith. That I will agree with.
    General Jacoby [continuing]. Effective missile defense for 
the people of the United States. And they deserve it. And they 
have spent a lot of money and we have made a lot of effort.
    You know, I believe that a lot of this has been 
theoretical--a theoretical threat and a theoretical capability, 
that the threat--the pace of the threat has become real. And 
the threat is real, and it is practical. And we have got some 
work to do to continue making sure that we have a practical 
system in place.
    But we are infinitely better off with the system that we 
have, and I believe it does have the capability. It gives me 
confidence against the current limited threat.
    The question is, what is the right path to improve that 
system, to outpace the threats, both from North Korea and any 
others that could now a highly sought and proliferated 
technology out there around the world.
    Mr. Smith. And I would submit, just for the record, that 
the wisest way to do that is not to spend money developing a 
new site until we set the system that we need to rely on 
working. Spend the money on that.
    General Jacoby. Congressman, I hope that in my answer to 
that question, I tried to indicate that I believe that it was 
important that we do things simultaneously.
    And so, there are things that we can do to be prepared to 
make a decision on whether we need a third site or not in the 
future.
    But if you start everything from scratch on the day that 
you decide you need something, then we are always behind.
    And so, I think that we have taken--we have been directed 
to take prudent steps. I don't think we are at a decision point 
for a third site, but I think we have set ourselves up to make 
a decision in a timely fashion. And I think that is smart to 
do.
    Mr. Smith. Yes. Thank you very much.
    Thank you, Mr. Chairman.
    General Jacoby. Yes, sir.
    Mr. Conaway. Gentleman yields back.
    Back to Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you both for your service.
    And, General Jacoby, I want to thank you in particular for 
the great things that your team has done, helping our homeland 
and helping locally in Colorado Springs for some of the 
wildfires that we had. The assistance that your people gave was 
tremendous. So thank you for that.
    We have had some discussion about missile defense. And I 
have to point out that there have been some budget cuts in the 
last few years, last 4 or 5 years, that I don't think were 
helpful.
    The purpose of testing is to find out what is wrong and to 
isolate those flaws and make improvements and--so that there is 
success afterwards.
    So, I am glad to see that we are finally, with this 
administration, getting some further funding to reverse some of 
that.
    Do you feel confident that we have a good system in place, 
not that it can't do better at testing and not that we can't 
continue to make improvements, which I believe we are, but are 
you confident that we have a good system right now?
    General Jacoby. I am confident that the system in place 
right now can handle the threat that exists right now. I think 
that what we have learned now is that there has to be continued 
smart investment that outpaces the threat.
    And Congressman, one of the things we haven't talked about 
yet. My first dollar would go to intel. So that, you know, if 
your measure of effectiveness is that you are outpacing threat, 
you need to know a lot about the threat. And so we need to do 
more in understanding everything there is to know about North 
Korean missile capabilities; everything there is to know about 
Iranian programs, to make sure that we can make threat-informed 
decisions, not just resource-informed decisions.
    Mr. Lamborn. Thank you. I appreciate that perspective. And 
you did mention North Korea, and I think Iran would be in that 
same list.
    On a slightly different list, cruise missiles. What nations 
now have the ability to send strategic ballistic cruise 
missiles to the U.S. from great distances?
    General Jacoby. Thanks, Congressman.
    Cruise missiles are proliferating as well. But the nation 
that has the highest level of sophistication and can pose the 
greatest threat to North America is Russia. And they continue 
to make very, very important advances in both conventional and 
nuclear cruise missiles, both aerial-delivered and submarine-
delivered. The first of the 12 projected Severodvinsk cruise 
missile-firing submarines--nuclear submarines is at sea and 
being worked up. And the missile that it uses has already 
demonstrated its effectiveness.
    So, this is a capabilities question. And we have always 
believed that having a capability and an intention to defend 
the country against aerospace threats is a capabilities issue, 
not just an intent issue. And so, we have been directed by the 
Secretary to ensure that we are also looking at how to provide 
effective defense against cruise missiles in a way that 
outpaces any threats, to include Russians.
    Mr. Lamborn. And what do you believe, General, should be 
the way forward on that?
    General Jacoby. Well, we have a way forward right now, 
Congressman, and that is a three-phased approach that has been 
approved by the Pentagon. And it starts with getting the 
National Capital Region right. And right now, we are going 
through a test phase where two things have been added or are 
being added to the National Capital Region--the Stateside 
Affordable Radar, in conjunction with a joint elevated net 
sensor, the JLENS [Joint Land Attack Cruise Missile Defense 
Elevated Netted Sensor System] balloons.
    And what they are trying to accomplish is integrating that 
into an overall defensive plan that allows us to see, detect, 
track, warn, and in the future hopefully engage cruise missiles 
that could pose a threat to the National Capital Region.
    Then the issue will be if the cruise missile threat 
continues to evolve, how do we then take and export that 
capability where we think we might need it to defend other 
strategically or critical infrastructure locations in the 
United States and Canada.
    Mr. Lamborn. Okay. Thank you very much.
    And lastly, funding for an improved kill vehicle. That is 
something that we did include in the fiscal year 2014 National 
Defense Authorization Act. I think it is valuable. What is your 
perspective on that?
    General Jacoby. The budget hasn't been released and missile 
defense wasn't addressed in the rollout that the Secretary made 
earlier in the week. I would be very happy to have funding 
against an improved kill vehicle and I am hopeful that we will 
see the ability to do that sometime in the future.
    Mr. Lamborn. Thank you very much.
    Mr. Conaway. The gentleman's time has expired.
    Mr. Bridenstine for one more round?
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I wanted to ask, General Kelly, when you think about 
economies of force and the asset layout that we currently have, 
obviously the more hardware you get, there is diminishing 
marginal return for every additional piece of hardware. But 
clearly, we are not anywhere near diminishing marginal returns 
at this point, given your lack of resources.
    If you could have the order of battle that you most desired 
to be as effective as possible, can you share what that might 
look like? And let's just pretend for a second that we had 
maybe a 2-year period of time when we were going to do a surge 
operation in the eastern Pacific and into the Caribbean.
    What would that order of battle look like, in your best 
judgment?
    General Kelly. Yes, sir. Our best estimates are if we had 
16 helicopter-capable platforms--again, they don't have to be 
warships necessarily--but 16 helicopter-capable vessels of some 
kind, to include Coast Guard cutters, and sufficient ISR. And 
as you know, actually you pointed it out before, intel is very, 
very good. The tracking across the oceans, it is hit or miss 
because our--of the isthmus in particular--is hit or miss just 
because of the lack of ISR. But we need more ISR.
    But at the end of the day, a vessel with a helicopter on 
it, our requirement is for 16, but you can see by some of the 
things we have talked about, when I had 5 or 6, we were taking 
huge amounts of cocaine out of the flow. But 16 is the number.
    And I have to say--I have to mention our--in addition to 
our Latin American partners that work so closely with us, the 
Dutch out of Curacao, they oftentimes will have a vessel in the 
Caribbean. The Brits have one there now. The French will 
oftentimes have one. And the Canadians have one. And they are 
as valuable to me as a U.S. vessel.
    In fact, last year, 67 percent of the seizures, they were 
involved in. So you could make the argument in 67 percent of 
the cases, we may not have gotten the drugs. That translates, 
by the way, to 80 tons of cocaine. A helicopter flying off of a 
Dutch buoy tender or oiler, or a French small boat--you know, 
frigate-type thing, or a Canadian frigate, is just as valuable 
to me as an American ship or Coast Guard cutter.
    Mr. Bridenstine. The squadron I used to fly in, we--on 
average, on an annual basis, we would bust about $2 billion 
worth of cocaine. We were involved in that operation. And, of 
course, the squadron has been eliminated, which means a lot of 
that cocaine--I am not saying that we can't get some of it at 
certain steps along the process--but a lot of it will be coming 
into the United States. And of course, that is devastating for 
our country and the children in this country.
    General Kelly. One of the--yes, sir. One of the--maybe the 
Congresslady made the point. You know, the consumption of 
cocaine actually in the United States is down. The war on 
drugs, if you will, if you look at the last 30 years, some 
people declare surrender here in DC [District of Columbia], but 
the fact is there is a lot more--there is a lot fewer kids 
starting drugs. So there has been great success in the so-
called war on drugs.
    Mr. Bridenstine. Right.
    General Kelly. Well, I will point out that we have tried to 
fight it in exactly the wrong place. And that is, in the United 
States. It is just not cost effective to do it here. But the 
use of cocaine is down, but guess what is up? Methamphetamines. 
The use of prescription drugs is down, but what is up is 
heroin.
    Mr. Bridenstine. Right.
    General Kelly. So, we are not addressing it, in my opinion, 
nearly as much here in the States in the same way that we are 
trying to address, say, the reduction of tobacco use. So it 
would start here as much an education for particularly young 
kids, but it starts with education. There is a medical aspect 
to this. There is a law enforcement aspect to this.
    But just like in any war, the worst place to fight it is in 
the homeland.
    Mr. Bridenstine. Right. We have got about 45 seconds left. 
I will ask a question; answer it the best you can. If you don't 
finish, then maybe we can get it on record in the future.
    Which is Venezuela--obviously, we have a very leftist 
government. We are seeing that the more power is centralized in 
these governments in Central and South America, the people 
ultimately rebel and it creates tremendous instability.
    As a nation, maybe you could provide for the record what we 
can do as a country to ensure that these efforts that are 
destabilizing the region, of course, a region that we need 
stability in for our own national security, what we can do as a 
nation to prevent this kind of thing in the future.
    General Kelly. Very briefly, Mr. Chairman, just engagement, 
more engagement is better. And some level of understanding for 
many of the countries that are struggling so terribly with 
internal violence and crime brought on to a large degree by our 
drug problem; a little bit of understanding as we work with 
them to clean up things like human rights; to get their police 
cleaned up--not cleaned up, but improved so that the police can 
go back to being policemen and the military can go back to 
defending the borders. So just a little bit more understanding.
    Venezuela is Venezuela. We watch it closely. Who knows what 
will happen. But there are others down there that are 
struggling mightily, that look to us for just a little 
understanding and a little bit of assistance. And I am not 
talking a lot of money. Frankly, in some cases, I am not 
talking money at all--just some advice and some training tips, 
if you will.
    Mr. Conaway. The gentleman's time has expired.
    General Jacoby and General Kelly, thank you both for your 
long, distinguished service. And we appreciate your attention. 
And thank you very much for coming today.
    The hearing is adjourned. Thank you.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 26, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2014

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2014

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. General Kelly, in your testimony, you stated, ``To 
adequately address the complex medical issues of the aging detainee 
population, we expanded and emphasized detailed reporting within our 
comprehensive system to monitor the health, nutrition, and wellness of 
every detainee.'' You also stated, ``Although Naval Station Guantanamo 
and detainee hospitals are capable of providing adequate care for most 
detainee conditions, we lack certain specialty medical capabilities 
necessary to treat potentially complex emergencies and various chronic 
diseases. In the event a detainee is in need of emergency medical 
treatment that exceeds on-island capacity, I cannot evacuate him to the 
United States, as I would a service member.'' Would you please provide 
the committee with a detailed list of those complex medical issues? In 
doing so, would you please describe: each medical issue; any necessary 
treatment associated with the issue; the number of detainees affected 
by the issue; any medical capability shortfalls associated with the 
issue; and the estimated cost of treating the issue on site, if such 
treatment or treatments would require the import of medical 
capabilities that exceed on-island capacities?
    General Kelly. Joint Task Force Guantanamo's Joint Medical Group 
(JMG) offers excellent primary care medical, dental, and mental health 
capabilities. U.S. Naval Hospital GTMO provides the referral 
consultative services in general surgery, orthopedic surgery, 
optometry, clinical nutrition, and physical therapy. This facility 
currently operates at the level of a small community hospital. Further 
subspecialty teams are sent from military treatment facilities in the 
U.S. when needed. These teams diagnose and treat the more complex 
health care issues. At present there are no detainees who have 
consented to, demonstrated requisite compliance for, or have medical 
conditions that would require care not available on GTMO. 82% of the 
detainee population is in good health and cooperates with healthcare 
providers who care for their medical issues. However, sudden 
deterioration of existing conditions could create situations in which 
medical needs exceed current capabilities. The Joint Task Force is 
charged with providing detainees medical care to the extent 
practicable, similar to standards applied to personnel of the U.S. 
Armed Forces. There are several foreseeable and potentially unforeseen 
medical conditions for which provision of on-island care to this 
standard could not be achieved with current capabilities.
    There are a number of detainees that have worsening chronic 
illnesses that will potentially exceed in-place and deployable medical 
capabilities. There are twelve (12) detainees with hypertension. They 
are offered appropriate medical therapy and clinical nutrition services 
to maintain a healthy weight. Four (4) refuse care. There are nine (9) 
detainees with diabetes. They are offered appropriate medical therapy 
and clinical nutrition services. Six (6) refuse care or inconsistently 
comply with offered care plans. There are six (6) detainees with 
Hepatitis. Five (5) have inactive hepatitis, while one (1) has chronic 
active hepatitis with resulting significant liver injury. State-of-the-
art anti-viral therapy has been made available and has been refused. 
There are several detainees that refuse recommended medical care on a 
regular basis which negatively impacts their health.
    Cardiovascular Disease (collectively heart disease, hypertension, 
and diabetes): Detainees with cardiovascular disease represent our 
greatest, most likely and most immediate potential need for 
capabilities not currently available at GTMO. There are four (4) 
detainees with heart disease. They are offered appropriate medical 
therapy and see a cardiologist routinely. All have a history of care 
refusal with variable current compliance with medical recommendations. 
Routine current medical management strategy of optimized management of 
blood pressure and use of medications to prevent episodes of chest 
pain, along with dietary therapy and weight management comprise 
clinically sound approaches to these detainees' conditions. Advance 
cardiovascular procedures, including manpower and portable facilities, 
would cost an estimated $1M per episode and take up to 30 days to 
execute while significantly impacting beneficiary care at military 
treatment facilities in the U.S. If there is an emergency 
cardiovascular event (heart attack or stroke), emergency medical care 
will be taken to treat the detainee.
    Malnutrition (from voluntary fasting): There are a small number of 
detainees at serious health risk related to their voluntary long term 
non-religious fasting and resulting malnutrition. They are 
appropriately managed medically and see an internal medicine physician 
routinely. All are offered clinical nutrition services to maintain an 
appropriate weight. No additional medical capabilities are required.
    Liver Disease: One (1) detainee's chronic active hepatitis with 
liver injury (cirrhosis) is expected to worsen but at an unknown rate, 
potentially yielding end-stage liver failure. There are temporary 
treatment options including surgical procedures requiring a high level 
of post-operative intensive care that are not available at GTMO. 
Definitive therapy would be a liver transplantation. It is conceivable 
that one (1) or more detainees would eventually meet clinical criteria 
for organ transplantation; however, it is not clear if detainees would 
be eligible to participate in an organ recipient registry. The cost to 
construct an organ transplant center would likely measure in the 
hundreds of millions of dollars.
    Kidney Disease: One (1) detainee has chronic kidney disease. It is 
conceivable that his condition could deteriorate to the extent that the 
detainee will require kidney dialysis. There is no dialysis capability 
at GTMO. Dialysis machines are available for purchase for less than 
$5K. Dialysis requires near permanent access to the blood stream 
through a blood vessel shunt in order to perform the filtering of the 
blood. This shunt would be suboptimal for the detention environment. A 
full time dialysis team with frequent kidney subspecialty medical care 
supervision would be required. Nurses who specialize in dialysis are 
usually not active duty military and the addition of this capability 
would thus require at least two civilian contracted positions at an 
estimated $200K each.
    Cancer: Although not an immediate concern, one (1) detainee death 
has been attributed to colon cancer. As all detainees are men, it is a 
statistical likelihood that there will be prostate cancer in the 
detainee population. Another detainee has a thyroid nodule being 
investigated for cancer. He is scheduled for a diagnostic biopsy. If 
biopsy results indicate cancer, then surgical removal of the tumor with 
a subsequent long course of chemotherapy and radiation will be required 
if the detainee chooses such therapy. No oncology services are 
available; no capability to prepare chemotherapy exists on GTMO nor is 
there radiation therapy. While the specifics of required resources and 
cost for treatment may vary significantly depending on the type of 
cancer any given detainee has, this detainee's case points out the 
significant medical capability shortfalls in cancer treatment available 
at GTMO. Radiation therapy capability would cost an estimated $10M to 
purchase or $3M per year to rent.
    Mental Health: Behavioral health providers have recognized detainee 
hopelessness and previous detainees have demonstrated psychosis. 
Currently 47 detainees are followed as active patients. Diagnoses 
currently managed are depression, anxiety, personality disorders, and 
delusional disorder. They are appropriately managed by a dedicated 
behavioral health team and have access to a psychiatrist routinely. 
Care refusal is widely variable in this population. Currently no mental 
health diagnoses exceed JMG care capabilities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. General Jacoby, how satisfied are you with the 
current state of the responsibility chain for weapons of mass 
destruction? Hypothetically, a weapon could be the responsibility of 
numerous agencies as it was designed, created, packaged, and 
transported to the country's borders and onto U.S. soil. Are you 
satisfied with the status quo, and if not, what more should be done?
    General Jacoby. I am satisfied with the current process and 
delineated responsibilities; however, we always look to refine and 
improve existing processes and procedures for dealing with this no-fail 
mission. For example, the newly established Special Operations Command 
North, under operational control of USNORTHCOM, now provides a focal 
point for lead federal agencies (DHS, DOJ, FBI) to request specialized 
active duty support to interagency operations.
    Mr. Langevin. General Kelly, your statement included comments on 
your command's efforts to ensure security of Department of Defense 
networks and communications infrastructure in your area of 
responsibility. In your view, what are the top U.S. network 
vulnerabilities in the region and what are the top cyber or network 
threats to our regional infrastructure in SOUTHCOM?
    General Kelly. The integrated nature of cyberspace makes DOD 
networks an attractive target for a broad range of worldwide actors. 
USSOUTHCOM networks in the AOR are no exception. DOD computers, 
networks, and communications infrastructure in the USSOUTHCOM AOR are 
threatened by both regional and global actors (1) who may directly or 
indirectly threaten our systems or the regional infrastructure (2) upon 
which we rely. State-sponsored actors are increasingly able to launch 
sophisticated attacks against the networks that control critical 
Department of Defense networks and infrastructure. We also do not 
discount concerns regarding the potential impact of insider threats 
either as a result of free will or coercion.(3)
    We have multiple communications infrastructures supporting our 
Security Cooperation Offices, Joint Task Forces, and Headquarters 
locations--all are susceptible to these threats. The number of 
different networks with independent and duplicate vulnerabilities in 
the current theater architecture requires us to replicate security 
tools, as well as situational awareness, and defensive processes. From 
a technical perspective, we are aligned with and developing plans to 
migrate to the DOD Joint Information Environment (JIE) in accordance 
with DOD Chief Information Officer directives by the FY18-19 time 
frame. JIE has several components that mitigate and reduce security 
related vulnerabilities, the greatest of which is to reduce duplicate 
networks and applications, as well as to integrate security tools and 
processes. JIE also offers some means to reduce threats associated with 
the insider threat.
    Much work has been done by USCYBERCOM, with the COCOMs and 
Services, in the areas of resources, training, tactics, techniques, and 
procedures (TTPs) to deal with the threats and vulnerabilities of the 
cyber domain. Unilateral operations in this domain are by far easier--
but the reality is that in our AOR, we operate in bilateral and 
multinational modes for the majority of our operations. Our partner 
nations have significant variations in resources, training, and TTPs to 
mitigate vulnerabilities or address threats as compared to how DOD 
operates and our policies limit what we can share or how we can assist 
them.
    (1) External threat actors include nation states, as well as non-
state actors. (2) The term infrastructure here is not limited to 
regional commercial telecommunications networks. The cyber threat also 
threatens regional power grids, supply chains, transportation networks 
and financial systems of nations in the AOR which would not only impact 
the USSOUTHCOM mission, but could cause economic and other disruptions 
for affected countries. (3) Malicious insiders may exploit their access 
at the behest of foreign governments, terrorist groups, criminal 
elements, unscrupulous associates, or on their own initiative.
    Mr. Langevin. General Kelly: what advanced technologies, now in the 
research and development phase, do you foresee would be most beneficial 
to our mission in the SOUTHCOM AOR?
    General Kelly. My specific priorities for advanced technologies in 
the Research & Development phase that are most beneficial to our 
mission include: advanced radio and laser detection and ranging (RADAR/
LIDAR) concepts to help our forces and our partners deny the enemy the 
camouflage, concealment and deception afforded by the dense jungles in 
the SOUTHCOM AOR; innovative technologies to enable the Afloat Forward 
Staging Base for use by our interagency and partner nation forces; and 
technologies that strengthen our operational capabilities in the cyber 
domain.
    My general priorities lie in technology areas that would mitigate 
our limitations in capacity and resources. These include: persistent 
Intelligence, Surveillance and Reconnaissance (ISR) technologies that 
enable innovative uses of new platforms to improve wide area detection 
and monitoring, as well as ISR systems that target the vast littorals 
and extensive riverine basins in theater; non-lethal technologies that 
enable more effective interdiction of targets such as go-fast boats, 
Self-Propelled Semi-Submersibles (SPSSs), and Fully Submersible Vessels 
(FSVs); operational energy initiatives that increase efficiency and 
decrease logistical burdens for remote locations; information sharing 
technologies that enable us to more effectively operate with our 
partners, both international and interagency; and technologies to 
counter the ever-evolving and growing use of Improvised Explosive 
Devices (IEDs) in the region, as experienced by Colombia, which has the 
second highest rate of IED incidents in the world.
    We also actively participate in a broad array of technology 
development projects, primarily from OSD's Joint Capability Technology 
Demonstrations (JCTDs), one of the few formal programs designed to 
directly support COCOM capability gaps. Additionally, we maintain close 
ties with defense agencies such as DARPA and DTRA, as well as with the 
National Laboratories, to continually assess the current state of 
technology, and provide operator insight into future development. While 
it is important to maintain a technical edge across the full spectrum 
of military operations, we must be cognizant of the technology gap that 
exists when working with our partners, both at home and abroad. 
Building our partners' capacity to improve regional security is a 
critical aspect of our technology development goals.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. Please describe your plans for cruise missile defense 
of the United States. Why is this threat getting your attention now?
    General Jacoby. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. Can you describe which states have cruise missiles 
capable of ranging the United States?
    General Jacoby. Cruise missile technology has continued to advance 
at a high pace as a lower-cost alternative to manned strike platforms. 
Today, Russia is the only nation-state assessed to possess cruise 
missiles capable of ranging the United States, and is a known 
proliferator of cruise missile capability. China likely has the 
technical expertise to develop this capability in the future, but to 
date we have not seen a Chinese intent to do so.
    Mr. Rogers. Are we developing a cruise missile defense capable of 
defending the national capital region from Russian cruise missiles?
    General Jacoby. Yes, we have a three-phased approach to cruise 
missile defense that Department has fully endorsed. The first phase 
looks at our existing structure in the National Capital Region and adds 
new surveillance and fire control systems. From there we plan to move 
to a second phase--our objective Defense Design--which provides a 
steady-state integrated air defense system capable of protecting our 
nation's capital from threats, such as emerging Russian cruise missile 
programs. As our newer systems mature and are integrated into our 
existing force structure, my goal is to outpace the threat by 
leveraging improved sensors, command and control networks, and 
adaptable deployable capabilities to expand beyond the National Capital 
Region.
    Mr. Rogers. In the FY14 NDAA, we included a provision and funding 
for the Missile Defense Agency to develop and deploy a next-generation 
kill vehicle. Why is that important to you?
    Do you support that provision? Why? We have, as you know, a large 
and capable radar originally developed for deployment in the Czech 
Republic. What are the pros and cons of deploying that radar as an 
additional long-range discriminating radar?
    General Jacoby. I strongly support the provision to redesign the 
Exo-Atmospheric Kill Vehicle. From a warfighter perspective, this 
redesign will significantly improve system reliability by taking 
advantage of new and proven technologies, such as Iron Dome, Terminal 
High Altitude Area Defense (THAAD), and the Navy's standard missile 
system.
    I believe the Missile Defense Agency is best-suited to answer your 
additional long-range discriminating radar question due to the 
technical nature of the pros and cons.
    Mr. Rogers. Why is Cobra Dane important to you as the NORTHCOM 
commander? Are you comfortable that there is a plan to ensure its long-
term availability to you?
    General Jacoby. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. Have you examined whether Cobra Judy is an attractive 
option for additional missile defense radar capability?
    General Jacoby. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. How closely have you examined the suitability of SBIRS 
and other on-orbit space assets for providing additional missile 
defense capability?
    General Jacoby. We are supporting USSTRATCOM in their efforts to 
prepare the FY14 NDAA-directed evaluation of options to improve 
ballistic missile defense capabilities. This evaluation will consider 
current Federal Government capabilities, as well as future systems, 
including a full review of on-orbit assets, such as the Space-Based 
Infrared System (SBIRS).
    Mr. Rogers. The President's EPAA originally supported forward-based 
homeland missile defense capability in Europe, as did the previous 
administration. Can you tell me what did a forward-based missile 
defense capability provide for the security of the United States? What 
defensive capability are we still missing now that those sites are no 
longer in the program of record?
    General Jacoby. The purpose of the forward-based homeland missile 
defense capability was to add to the protection of the U.S. homeland, 
which is defended by our current Ground-based Interceptors (GBIs) 
against missile threats from the Middle East. By shifting resources 
from the European Phased Adaptive Approach (EPAA) capability, DOD was 
able to fund an additional 14 GBIs being deployed to Fort Greely, AK, 
as well as advanced-kill vehicle technology that will improve the 
performance of our GBIs against threats from the Middle East faster 
than could have been achieved by EPAA Phase IV. I believe these 
improvements will provide better capability than previous forward-based 
capabilities.
    Mr. Rogers. In the FY14 NDAA, we included a requirement and funding 
for MDA to update its plans and required documentation to a potential 
East Coast missile defense site. Do you support this effort which we 
authorized and appropriated funding for to reduce the deployment 
timeframe when the United States decides to deploy this site?
    a. What would a third interceptor site on the East Coast of the 
U.S. provide for missile defense coverage of the United States?
    b. Would it be prudent, in your opinion, if all of the appropriate 
required documentation was completed, to deploy this site sooner rather 
than later?
    General Jacoby. I believe planning for a third site is prudent and 
places us in a position to make an informed deployment decision in a 
timely fashion. If built, a third site would give us better weapons 
access, increased inventory, and increased battlespace for threats 
coming from the direction of the Middle East. However, even after the 
Environmental Impact Statement process is completed, any future 
deployment decision to build a third site should still be based upon 
known and anticipated threats.
    Mr. Rogers. Please describe the Iranian ballistic missile threat. 
Have you seen it abate in any way over the past year?
    General Jacoby. Iran possesses a substantial force of short- and 
medium-range ballistic missiles capable of striking targets throughout 
the Middle East and parts of Europe. To date, Iran has not demonstrated 
a ballistic missile capable of reaching intercontinental distances. 
However, it has an organic engineering capability that may result in a 
more sophisticated ICBM threat, to include more advanced decoys and 
countermeasures technology. Thus, while the Iranian missile program has 
experienced some setbacks in recent years, Iranian engineers continue 
their efforts to improve the country's ballistic missile capabilities 
and are on track to flight test an ICBM range capability as early as 
2015. Iran will not likely remain a simple, unsophisticated threat in 
the future, and we will need to keep pace with them.
    Mr. Rogers. The 2012 Iran military power report of the DOD stated 
Iran may be technically capable of testing an ICBM by 2015, which is 
next year. Do you have any reason to believe that that estimate is 
incorrect?
    a. Have you seen evidence of Iran flight testing space launch 
vehicles in the recent years?
    b. Is space launch technology applicable to Iran's ballistic 
missile program?
    c. Are Iran and North Korea rekindling their past ballistic missile 
and nuclear weapon cooperation?
    d. Can you explain the significance of North Korea assisting Iran 
with ballistic missile development?
    General Jacoby. We continue to assess that Iran may be technically 
capable of testing an ICBM by 2015, though we do not know if Tehran has 
the intent to do so. Iran continues its attempts to place satellites 
into orbit using boosters that incorporate ballistic missile 
technologies.
    The current extent of the North Korean-Iranian ballistic missile 
and nuclear cooperation is unclear. However, following North Korea's 
successful demonstration of long-range missile technologies during the 
country's December 2012 satellite launch, there may be the potential 
for North Korean engineers sharing lessons learned with their Iranian 
counterparts as they have done in the past--we are watching this 
closely.
    Mr. Rogers. It has been reported in the press and publicly 
proclaimed by the Chinese themselves that they are deploying a new 
submarine-based ballistic missile capability. Are you comfortable that 
you are well-postured today to deal with an unauthorized launch by a 
Chinese ballistic missile submarine?
    For that matter, are you well-postured to appropriately defend 
against an unauthorized launch from either China or Russia?
    General Jacoby. [The information referred to is classified and is 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. How is the operational effectiveness and efficiency of 
the National Capital Defense structure expected to be improved with the 
integration of JLENS? Are there criteria for mission impact parameters 
such as improvement of response time for decision making and management 
of available assets for response?
    General Jacoby. [The information referred to is classified and is 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Please provide specific details that your command's 
need regarding ISR support and Coast Guard assets. Your testimonies 
highlighted that your AORs require additional resources to support drug 
interdiction and that more Coast Guard and ISR capability would be 
needed as we further develop Arctic strategy.
    General Jacoby. For drug interdiction: USNORTHCOM has validated ISR 
requirements to support interdiction by our law enforcement partners, 
to include the U.S. Coast Guard. The capabilities we require include 
full motion video, forward-looking infrared and moving target indicator 
at the medium to high-altitude range. These requirements may be met by 
manned and unmanned platforms. I view our required and authorized 
support of law enforcement partners to find and fix illicit traffickers 
entering the United States or its territorial waters as also having 
Homeland Defense dimensions because of the threat to national security 
posed by illicit traffickers.
    Mr. Garamendi. Please provide specific details that your command's 
need regarding ISR support and Coast Guard assets. Your testimonies 
highlighted that your AORs require additional resources to support drug 
interdiction and that more Coast Guard and ISR capability would be 
needed as we further develop Arctic strategy.
    General Kelly. Historically, SOUTHCOM has been undersourced on DOD 
naval surface asset allocation and that allocation has continued to 
decline due to budget cuts being borne by the Services. In order to 
remain effective at countering illicit traffic (CIT) we require 
additional surface assets, either DOD or USCG, and DOD ISR systems to 
respectively (1) partially fill the naval surface force gap and (2) 
increase the effectiveness of allocated resources.
    For FY15, SOUTHCOM has been allocated 24% of its total drug 
interdiction surface force out of a 22 total ship presence requirement. 
This total surface force allocation is well below that required to 
either achieve the national illicit traffic interdiction goal of 40% or 
put effective pressure on transnational criminal networks. But 
successful and efficient interdiction of illicit narco-traffic in the 
maritime domain is not only predicated upon surface force allocation; 
ideally it requires a complementary package that includes flight-deck 
equipped surface assets with embarked Airborne Use of Force (AUF)-
capable rotary wing air asset(s), robust intel capability, persistent 
Maritime Patrol Aircraft (MPA), and a high speed Over the Horizon (OTH) 
smallboat with an embarked Coast Guard boarding team.
    USSOUTHCOM's airborne ISR requirements have historically been 
sourced at 5%, which represents a fraction of the total DOD globally 
allocated airborne ISR assets. This limited airborne ISR allocation 
does not provide USSOUTHCOM with sufficient ISR capacity to support 
partner nation efforts to disrupt threat networks in Central America 
while maintaining our enduring support to Colombia. Persistent ISR 
capabilities are critical to boost our surface asset efficiency--our 
historical data shows that a ship alone has a 9% detection rate, but 
when we add a rotary element and ISR (MPA) to the mix we increase that 
detection rate to 70% thus increasing that ship's overall effectiveness 
within the Interdiction Continuum. In FY2013, whenever this ship-helo-
MPA package detected an illicit event that event ended in disruption 86 
percent of the time--an impressive probability of interdiction 
approaching 90 percent. Although it will not eliminate the gap, any ISR 
efficiency boost can help us deal with lower than required surface 
presence in our 42 million square mile Joint Operating Area. This could 
include deploying systems such as the Navy's P-3 or follow-on P-8, and 
the Air Force's E-8, E-3, or MQ-9.
    We rely heavily on the USCG allocation to provide the majority of 
our assets, and therefore look to the Department of Homeland Security 
to help us meet our CIT mission by increasing its allocation of USCG 
surface assets. To date, the Coast Guard has been extremely proactive 
and flexible in their efforts to help in this fight, which includes 
their deploying Helicopter Interdiction Tactical Squadron (HITRON) 
helicopters aboard surface assets other than their service's cutters. 
Any resource action that directs more flight-deck equipped cutters 
(USCG) and surface combatants (USN, Allied) to the AOR with embarked 
AUF helicopters, exponentially increases opportunities for successful 
Interdiction and Apprehension (I&A).

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
